<html>
<title> - CONDITIONS AND IMPROVEMENTS TO THE DISTRICT OF COLUMBIA PUBLIC SCHOOL SYSTEM</title>
<body><pre>[Senate Hearing 109-285]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-285

 
 CONDITIONS AND IMPROVEMENTS TO THE DISTRICT OF COLUMBIA PUBLIC SCHOOL 
                                 SYSTEM

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                      MAY 25, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
24-940                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                    SAM BROWNBACK, Kansas, Chairman
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia (ex 
    officio)                             officio)
                           Professional Staff

                             Mary Dietrich
                             Emily Brunini
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Sam Brownback.......................     1
Statement of Clifford Janey, Superintendent, D.C. Public Schools.     7
    Prepared Statement of........................................    10
Statement of Peggy Cooper Cafritz, President, D.C. Board of 
  Education......................................................    12
    Prepared Statement of........................................    14
Statement of Kathy Patterson, Chair, Committee on Education, 
  Libraries, and Recreation, District of Columbia................    16
    Prepared Statement of........................................    17
Statement of Thomas Nida, Chair, D.C. Public Charter Schools 
  Board..........................................................    20
    Prepared Statement of........................................    22
Prepared Statement of Senator Mary L. Landrieu...................    29
Statement of Juanita Wade, Director, D.C. Education Compact......    42
    Prepared Statement of........................................    43
Statement of Ariana Quinones, Executive Director, D.C. Charter 
  School Association.............................................    46
    Prepared Statement of........................................    48
Statement of Doris Olaseha, parent...............................    51
    Prepared Statement of........................................    53
Additional Committee Questions...................................    57


 CONDITIONS AND IMPROVEMENTS TO THE DISTRICT OF COLUMBIA PUBLIC SCHOOL 
                                 SYSTEM

                              ----------                              


                        WEDNESDAY, MAY 25, 2005

                               U.S. Senate,
          Subcommittee on the District of Columbia,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:15 p.m., at Hine Junior High 
School, 335 8th Street SE., Washington, DC, Hon. Sam Brownback 
(chairman) presiding.
    Present: Senators Brownback and Landrieu.


               opening statement of senator sam brownback


    Senator Brownback. I call the hearing to order. I thank you 
all for being out today. This is a field hearing of the 
District of Columbia Appropriations Subcommittee. I'm Sam 
Brownback, U.S. Senator from Kansas. I chair the D.C. 
Appropriations Subcommittee. And I have worked on D.C. issues 
in the past. I was the authorizing chairman when I first came 
into the Senate in 1996. I was just commenting to the 
superintendent, that at that time we held a series of hearings 
about the District of Columbia, dealing with a lot of financial 
issues and others. Now that I come back around to the issue, 
I've seen a lot of progress in many areas, but not much 
progress in the school system. I'm looking forward to this 
hearing and to what the comments are about what we can do to 
improve education for the students of the D.C. public school 
system.
    I want to welcome, as well, all the students that are here 
today. Thank you very much for being here.
    This hearing is about you and those who come behind you. 
When we provide a better system, better results come out of 
that system, so I'm pleased that you're here.
    The current state of affairs of the District is, indeed, 
troubling. According to the Department of Education, only 32 
percent of fourth graders are reading at a basic level, not an 
accelerated level, not above standard level, but at a basic 
level. That's compared to 62 percent nationwide.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And I want to direct your attention to this chart. I just 
want to go through some of these facts. This refers to both 
reading and mathematics. Only 36 percent of these same students 
are performing at a basic level in mathematics, compared to 77 
percent nationwide. These are unacceptable numbers. It means 
that two out of every three fourth graders in the District 
cannot read, multiply, or divide at the appropriate grade 
level.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    These low test scores stand in stark contrast to the amount 
of per pupil spending in the District, which is the highest in 
the Nation. According to the National Education Association, 
the District spends $13,317 per pupil each year, far greater 
than the national average of $8,208. Compared to the rest of 
the country, we're spending nearly twice as much and getting 
half the results in the District of Columbia. This is not 
acceptable. It's not acceptable to the students or for the 
students. And it's not acceptable for our future.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Lack of money is not the problem. According to the 
District's chief financial officer, money for the District 
school systems, including traditional public schools and 
charter schools, has increased a whopping 83 percent since 
fiscal year 1999, even though overall enrollment has actually 
dropped 5 percent during that same time period.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The drop in student enrollment in traditional public 
schools, as parents have sought out other options for their 
children, has been precipitous, 19 percent since fiscal year 
1999, yet funding for traditional public schools, not including 
charter schools, has increased 38 percent over that same time 
period.
    Obviously, the funding for D.C. public schools is entirely 
decoupled from student enrollment. Despite large increases in 
spending, one-third of schools have no art or music education 
programs. One-third. Many school facilities remain open even 
though they're well below capacity, and many are rundown, or 
even unsafe. These past failures are significant and have 
contributed to the 37 percent adult illiteracy rate in the 
District.
    I was especially troubled to learn that over 30 percent of 
the D.C. public school system teachers are not certified. I 
understand, from Superintendent Janey, that he may be forced to 
terminate some of these teachers if they cannot be 
credentialed.
    I have cited these grim statistics, not because I am 
pessimistic about the future of the D.C. public school system, 
but because I want this hearing to be a clarion call to action. 
This is a dire situation that demands the most urgent 
attention. I want all of us to listen to this new and capable 
superintendent and give him the support he needs to make many 
tough choices over the coming months so that we can change 
these results. He has recently unveiled his Declaration of 
Education, which is an ambitious plan, with a goal of improving 
teaching and learning in every classroom, providing more 
efficient management and operations systems, and increasing 
cooperation with parents, civic organizations, business, and 
other city agencies. I'm eager to hear more details about this 
plan.
    The sad fact is, though, that the District of Columbia has 
seen five superintendents come and go in the past 7 years. 
Herculean attempts by these individuals to fix the problem have 
too often been met with delay or denial or dismissal. This 
cannot happen again.
    When a city continues to see increases in unemployment 
while it's creating new jobs at an even greater rate, something 
is wrong with the educational system. By denying youngsters the 
opportunity to receive a decent education, we are relegating 
them to lives of limited choices and few opportunities.
    I am pleased that charter schools are offering an 
alternative for over 16,000 students whose parents are 
dissatisfied with the current public school system. This is an 
amazing figure, given that the first charter school was 
established only 8 years ago.
    I'm also pleased that over 1,000 D.C. school children are 
now participating in a federally funded pilot program to use 
vouchers to attend 58 different private schools throughout the 
city, and another 1,000 students will be awarded vouchers for 
the coming school year. We must continue to find new and 
innovative ways to offer children the best educational 
opportunities possible.
    This hearing is historic because it is the first 
congressional hearing to be held in a D.C. public school. Today 
I hope to learn more about the superintendent's plan to 
transform the D.C. public schools and find out how the Congress 
can be a helpful partner in this endeavor. I also hope to hear 
comments from all of the witnesses here that they will work 
together to ensure that this newest effort to fix D.C. schools 
will not go the way of the last ones and that we will be 
successful and we will change these numbers.
    I do ask witnesses--and we will run a time clock--to limit 
their testimony to 5 minutes for their oral remarks. Their 
written statements will be placed in the record and be taken as 
a part of the entire record.
    The ranking member on this subcommittee, Senator Landrieu, 
is also very concerned about the D.C. public schools. I believe 
she will be here a little bit later. Her schedule would not 
allow her to be here at the outset of the hearing, but she will 
be here a little later on.
    It is critically important that we address this issue 
soberly and thoughtfully, so that in the future, in the years 
to come, we don't see charts like what we have now, but we see 
charts where students are learning, where they're growing, 
where they're improving within the D.C. public school system. 
And that is everybody's objective.
    We will hear now from the first panel. Dr. Clifford Janey 
is the Superintendent of the D.C. Public Schools. Next, we'll 
hear from Mrs. Peggy Cooper Cafritz, President of the D.C. 
Board of Education. Ms. Kathy Patterson is chair of the 
Committee on Education, Libraries, and Recreation for the D.C. 
City Council. And, finally, Mr. Thomas Nida, chair of the D.C. 
Public Charter Schools Board.
    We'll be hearing from two panels. As I say, your full 
testimony will be placed in the record. I do have some 
questions I would like to ask each of you after the full panel 
has presented. I appreciate very much your attendance.
    Dr. Janey, I do welcome you to this job. It is an important 
and a big task, and I know you're up to it, and I look forward 
to hearing your testimony and how we're going to address these 
numbers.
    Dr. Janey.

STATEMENT OF CLIFFORD JANEY, SUPERINTENDENT, D.C. 
            PUBLIC SCHOOLS
    Dr. Janey. Yes, thank you.
    If I can beg your indulgence, 5 minutes might be a little 
tight. If I could have another minute or so----
    Senator Brownback. We'll do so.
    Dr. Janey. Okay. Thank you very much.
    I'm Clifford Janey, superintendent and chief state school 
officer of the D.C. Public Schools. I welcome the opportunity 
to appear before this subcommittee to talk about what we are 
doing to turn around the District's public schools.
    For school year 2004, DCPS is educating over 62,000 
students, with 68 qualifying for free or reduced lunch. The 
D.C. Public Schools is proud of its diversity--12 percent of 
our students speak more than 121 languages and represent 135 
countries. This description of who we are helps to define what 
we can be as a hub for pre-kindergarten through 12, 
international studies, and global education.
    I came as superintendent to a district that, despite 
talented and well-intentioned people throughout, was clearly 
troubled with deficiencies in critical areas. For purposes of 
today's testimony, however, I will focus on two key areas: 
academics and operations.
    Earlier this month, at Kelly Miller Middle School, with the 
support of more than 500 stakeholders, I introduced our 
strategic plan, named the Declaration of Education. There are 
three mutually supportive goals that frame this Declaration of 
Education. The first, as it should be, focuses on academics. 
The second goal focuses on management systems. And the third 
goal focuses on communication and collaboration.
    Prior to my tenure, there was no well-coordinated 
systemwide plan for academic achievement, no universal 
academically sound DCPS curriculum. In other words, there was 
little coordination and continuity from grade level to grade 
level and from school to school. The result was predicable. At 
some schools, the quality of teaching and learning was high; at 
others, it was not.
    The initiatives we outline here comprise a systematic 
framework with the potential to make significant improvements 
in student achievement across the District. We have begun by 
implementing newly adopted learning standards for all public 
schools in the District of Columbia, based on the highly 
regarded Massachusetts model. We are developing a new 
curriculum and a new assessment system that will help staff 
identify how to provide appropriate learning experiences for 
all of our students. The assessment system will also be 
sufficiently rigorous to meet NCLB requirements.
    Among our specific academic goals, one, for elementary 
students, our goal is to raise the English language-arts 
proficiency to 50 percent of students this year, and to 65 
percent in 2008. In mathematics, we will work to raise the 
proficiency from 37 percent of students in 2004 to 60 percent 
in 2008. We will increase the number of students enrolled in 
advanced placement courses and taking AP exams and passing 
them. We will support and strengthen the International 
Baccalaureate Program at Banneker Senior High by developing 
feeder schools and creating an additional International 
Baccalaureate Program east of the river. We will intensely 
strengthen our career and technical education programs.
    Our challenges, in terms of special education, are well 
documented. For example, Education Week recently noted, quote, 
``The task is daunting. Special education students make up 
about 20 percent of the 62,000 student system's enrollment, and 
the proportion is growing.'' This slight growth not only has an 
impact on the academic integrity of our special education 
programs, but also the operational costs associated with the 
four court orders that require a range of services to meet and 
sustain compliance.
    Because of an unwavering commitment to improve the overall 
quality of special education programs, I have aligned the 
Office of Special Education under the direction of the Office 
of Academic Services. This allows for a more integrated 
approach to special education service delivery.
    A great example of this alignment is the Prospect Learning 
Center that is the home to over 100 children with learning 
disabilities. This program is similar to the private specialty 
schools, such as The Lab School of Washington, DC, that enjoys 
an international reputation for its innovative programs. 
Prospect is an example of an expanded in-house capacity within 
the school district that will reduce costs while improving 
quality services.
    Another example of what we can achieve when accountability 
and innovation intersect is how our schools are using the high 
performance school grants award from our $23.6 million 
congressional appropriation for school improvement--I thank you 
and the subcommittee for that--with the stipulation that the 
funding be used effectively to elevate academic achievement.
    One elementary school principal recently shared what she 
had accomplished using her additional $75,000 grant from the 
appropriation. She started by leveraging the funding for a 
$6,000 discount from a technology vendor, and then purchased 34 
wireless laptop computers for her fifth and sixth grade 
literature students. She was also able to send eight teachers 
to Columbia University to study with the Nation's best staff 
developers and professors in the field of literacy. This became 
a magnificent opportunity to transform classrooms into 
demonstration labs for teacher training throughout the 
District.
    In addition to serving as superintendent, I'm the chief 
state school officer, with the responsibility for all schools 
within the District of Columbia, including charter schools. On 
Friday of this week, as part of my ongoing work with charter 
schools, I will be principal for the day at Kipp Academy. This 
will give me a unique perspective on the groundbreaking and 
innovative program that provides a bridge to achieving for 
students often considered to be the most academically 
challenged.
    In order to support similar high-quality teaching and 
learning in our classrooms, we must make critical improvements 
to our management systems, and we are doing just that. When I 
came onboard, I found the procurement system and the facilities 
division in such a state that they could be described, on a 
good day, as dysfunctional. To give you a sense of why such 
systems are important to quality teaching and learning, 
consider how difficult it is for a teacher to instruct his or 
her students if it takes months for a basic supply order to 
make its way through procurement.
    Another example of what we can achieve when accountability 
and innovation intersect is how our schools are certainly going 
to make a benefit of this new system I have talked about, in 
terms of procurement.
    Although much work needs to be done, we have piloted 
Project Phoenix, a procurement project based on a partnership 
with American Express. Through this process, principals will be 
able to make critical campus purchases for products such as 
office and instructional materials and custodial supplies, and 
reduce delivery time from 2 to 3 months to 2 to 3 days. That 
particular project with American Express only helps us to spend 
less time on small-volume orders, and we would be doing a lot 
more strategic sourcing with the major contracts coming from 
procurement.
    We have a partnership with the city to fully automate our 
personnel system and to eliminate the payroll backlogs that 
have plagued the District for many years. Since January, we 
have processed more than 10,000 personnel actions to correct 
many of these errors.
    In the area of food and nutrition services, program reviews 
by the U.S. Department of Agriculture and State Education 
Office review often resulted in failures that place the 
District at risk of losing Federal funding. In response, this 
year we developed a strategy to provide better support for 
schools to meet compliance and avert a potential loss of $16 
million from the USDA food and nutrition programs.
    Another area where our needs are legendary is school 
facilities. I welcome you today to Hine Junior High School, 
built in 1963, more than 40 years ago, but still one of our 
newer schools, ironically. Eighty-six of our 147 schools are 
more than 50 years old. Another 41 schools are 75 years old or 
older. And between 1982 and 2000, only four schools were added 
to or rebuilt.
    The combined effects of aging structures, deferred 
maintenance, and delayed improvements have created a climate of 
failing boilers, deteriorating walls, inoperable windows, and 
leaking roofs. Many buildings have not been painted in more 
than 10 years, and some classroom carpet is more than 20 years 
old. When pipes freeze, cooling systems break down, or roofs 
leak, it affects instructional quality and often instructional 
time.
    Seventy-four of our elementary schools do not have Internet 
connectivity. While our middle and junior high schools and 
senior high schools have Internet connectivity in their 
learning areas, they have poor infrastructure with respect to 
the electrical and electronic systems.
    I cannot overstate the simple premise that every student 
needs and deserves a decent learning environment. To address 
the facility concerns and meet our most urgent facilities needs 
in the context of fiscal realities, we developed the 
transitional capital improvement plan, adopted by the Board of 
Education at the end of March. The transition plan allows for a 
more effective and strategic use of available funds by 
replacing a single strategy of modernization with a set of 
options that include modernization, systemic rehabilitation, 
and stabilization of our buildings. These options afford 
substantial cost savings while providing decent learning 
environments for more students. Under the transition plan, 44 
schools will be brought up to the standards, as compared to 30 
under the old master facilities plan, with an additional 5,946 
students to benefit the same level of capital investment.
    Senator Brownback. Dr. Janey, if you could summarize or 
wrap up----
    Dr. Janey. I'm about to. Welcome, Senator Landrieu.
    Another approach to make the best use of our facilities is 
embodied in a new co-location plan that allows educationally 
compatible services and programs, libraries, health clinics, 
community-based organizations, and charter schools to share 
underutilized facilities.
    I would just end by saying: in order to move this 
particular agenda, it is going to require the cooperation and 
coordination of the entire community. And, fundamentally, that 
is why we're here this afternoon. And I look forward to the 
question and answer period.
    Thank you.
    [The statement follows:]

              Prepared Statement of Dr. Clifford B. Janey

    Thank you very much, Senator Brownback, Senator Landrieu and 
subcommittee members.
    I am Clifford B. Janey, superintendent and chief state school 
officer for the public schools District of Columbia.
    I welcome the opportunity to appear before this committee to talk 
about what we are doing to turn around the District's Public Schools. 
For school year 2004, DCPS is educating 62,306 students with 68 percent 
qualifying for free or reduced lunch.
    The District of Columbia Public Schools is proud of its diversity. 
Twelve percent of our students speak more than 121 languages and 
represent 135 countries. This description of who we are helps to define 
what we can be, as a hub for pre-kindergarten through twelve 
international studies and global education.
    I came as superintendent to a district that, despite talented and 
well-intentioned people throughout, was clearly troubled with 
deficiencies in critical areas. For purposes of today's testimony, I 
will focus on two key areas: academics and operations.
    Early this month at Kelly Miller Middle School with the support of 
more than 500 stakeholders, I introduced our strategic plan, ``The 
Declaration of Education.''
    There are three mutually supportive goals that frame this 
Declaration of Education. The first, as it should, focuses on 
academics.
    The second goal focuses on management systems and the third goal 
focuses on communication and collaboration.
    Prior to my tenure, there was no well-coordinated system-wide plan 
for academic achievement and no universal, academically sound DCPS 
curriculum. In other words, there was little coordination and 
continuity from grade level to grade level and from school to school.
    The result was predictable: at some schools, the quality of 
teaching and learning was high; at others it was not.
    The initiatives we outline here comprise a systematic framework 
with the potential to make significant improvements in student 
achievement across the District.
    We have begun by implementing newly adopted learning standards for 
all public schools in the District of Columbia, based on the highly 
regarded Massachusetts instructional infrastructure. We are developing 
a new curriculum and a new assessment system that will help staff 
identify how to provide appropriate learning experiences for all of our 
students. The assessment systems will also be sufficiently rigorous to 
meet NCLB requirements.
    Among our specific academic goals:
  --For elementary students, our goal is to raise English/language arts 
        proficiency to 50 percent of students this year and to 65 
        percent by 2008.
  --In mathematics, we will work to raise proficiency from the 37 
        percent of students in 2004 to 60 percent in 2008.
  --Increase the number of students enrolled in advanced placement (AP) 
        courses and taking AP exams.
  --Support and strengthen the international baccalaureate (IB) program 
        at Banneker Senior High by developing feeder schools and create 
        an additional IB program east of the river.
  --Strengthen our career and technical education programs.
    Our challenges in terms of special education are well-documented. 
For example, education week recently noted: ``. . . The task is 
daunting. Special education students make up about 20 percent of the 
62,000 student system's enrollment, and the proportion is growing.''
    This growth not only has an impact on the academic integrity of our 
special education programs, but, also, the operational costs associated 
with the four court orders that require a range of services to meet and 
sustain compliance.
    Because of an unwavering commitment to improve the overall quality 
of special education programs, I have aligned the Office of Special 
Education under the direction of the Office of Academic Services. This 
allows for a more integrated approach to special education service 
delivery.
    A great example of this alignment is the Prospect Learning Center 
that is home to 100 children with learning differences. This program is 
similar to private specialty schools such as the Lab School of 
Washington, DC that enjoys an international reputation for its 
innovative programs. Prospect is an example of expanded in-house 
capacity that has reduced costs while providing quality services.
    Another example of what we can achieve when accountability and 
innovation intersect is how our schools are using the high performance 
school grants award from our $23.6 million congressional appropriation 
for school improvement. I thank you.
    With the stipulation that the funding be used effectively to 
elevate operations, one elementary school principal recently shared 
what she had accomplished using her $75,000 grant from the 
appropriation. She started by leveraging the funding for a $6,000 
discount from a technology vendor and then purchased 34 wireless laptop 
computers for her 5th and 6th grade literature students. She was also 
able to send eight teachers to Columbia University to study with the 
nation's best staff developers and professors in the field of literacy. 
This became a magnificent opportunity to transform classrooms into 
demonstration labs for teacher training.
    In addition to serving as superintendent, I am the chief state 
school officer with the responsibility for all schools within the 
District of Columbia, including charter schools. On Friday, as part of 
my ongoing work with charter schools, I will be principal for a day at 
the Kipp Academy. This will give me a unique perspective on a 
groundbreaking and innovative program that provides the bridge to 
achievement for students often considered to be the most academically 
challenged.
    In order to support similar, high quality teaching and learning in 
our classrooms, we must make critical improvements to our management 
systems. And, we are doing just that.
    When I came on board, I found the procurement system and the 
facilities division in such a state that they could be described, on a 
good day, as dysfunctional. To give you a sense of why such systems are 
important to quality teaching and learning, consider how difficult it 
is for a teacher to instruct his or her students if it takes months for 
a basic supply order to make its way through procurement.
    Although much work needs to be done, we have piloted the project 
Phoenix, a procurement process based on a partnership with American 
Express. Through this, principals will be able to make critical campus 
purchases for products such as office and instructional materials and 
custodial supplies and reduce delivery time from two to three months to 
two to three days.
     We have a partnership with the city to fully automate our 
personnel system and to eliminate the payroll backlogs that have 
plagued the District for years. Since January, we have processed more 
than 10,000 personnel actions to correct many of these errors.
    In the area of food and nutrition services, program reviews by the 
U.S. Department of Agriculture and state education office review often 
resulted in failures that placed the District at risk of losing Federal 
funding. In response, we developed a strategy to provide better support 
for schools to meet compliance and averted a potential lost of $16 
million funds from the USDA food and nutrition programs.
    Another area where our needs are legendary is school facilities. I 
welcome you today to Hine JHS, built in 1963 more than 40 years ago, 
but, still, one of our newer schools. Eighty-six of our 147 schools are 
more than 50 years old. Another 41 schools are 75 years or older. And, 
between 1982 and 2000, only four schools were added to or rebuilt.
    The combined effects of aging structures, deferred maintenance and 
delayed improvements have created a climate of failing boilers, 
deteriorating walls, inoperable windows and leaking roofs. Many 
buildings have not been painted in more than 10 years and some 
classroom carpet is more than 20 years old. When pipes freeze, cooling 
systems breakdown or roofs leak, it affects instructional quality and 
often instructional time.
    I cannot overstate the simple premise that every student needs and 
deserves a decent learning environment. To address facility concerns 
and meet our most urgent facilities needs in the context of fiscal 
realities, we developed the transition capital improvement plan adopted 
by the Board of Education at the end of March 2005.
    The transition plan allows for a more effective and strategic use 
of available funds by replacing a single strategy of modernization with 
a set of options that include modernization, systemic rehabilitation 
and stabilization. These options afford substantial cost savings while 
providing decent learning environments for more students. Under the 
transition plan, 44 schools will be brought up to standards as compared 
to 30 schools under the old master facilities plan, with an additional 
5,946 students (based on current enrollment) to benefit from the same 
level of capital investment (the reallocation of $50.3 million in 
capital funding).
    Another approach to make the best use of our facilities is embodied 
in our new co-location plan that will allow educationally compatible 
services and programs--libraries, health clinics, community-based 
organizations or charter schools--to share underutilized facilities.
    Collaboration and partnership will continue to be guiding forces 
and the means for making additional opportunities available to our 
students. I appreciate the opportunity to share this information about 
the D.C. Public Schools--where we are, where we need to be, and, 
ultimately, how we will provide the kind of education students in our 
Nation's Capital deserve.
    This concludes my testimony. I will now answer any questions you 
may have.

    Senator Brownback. Thank you, Dr. Janey, and I look forward 
to our dialogue back and forth.
    I would ask the other witnesses to, if you can, summarize 
your comments in your own words. I think we both have a lot of 
questions, and we would like to spend as much time as possible 
just going through those questions.
    I do welcome my colleague, the ranking member, Senator 
Landrieu, to the hearing--who I know had other obligations or 
she would have been here at the very outset.
    Ms. Cafritz. And get that microphone, if you could, right 
up to you. I think the acoustics are showing the age of the 
building.

STATEMENT OF PEGGY COOPER CAFRITZ, PRESIDENT, D.C. 
            BOARD OF EDUCATION
    Ms. Cafritz. Welcome to the D.C. Public School system, the 
system that is home to the National Teacher of the Year--and 
the school district that had an Intel Westinghouse winner last 
year and the year before.
    I want to say something--I'm submitting my testimony for 
the record. I just want to make a few comments. In the District 
of Columbia, we have more school choice, I think, than any 
other city in the country. We have the black student fund, 
which, since the 1960s, has been identifying and placing 
minority students in the finest private schools, such as St. 
Alban's and Sidwell Friends, in the city. We have the vouchers, 
which places children primarily in Catholic and other religious 
schools. We have charter schools, and we have the public school 
system. And participating in these programs is a choice for 
parents.
    As to how much it costs to educate children in the District 
of Columbia, it is expensive to educate the children of 
poverty. If you take a child who has no computer at home, and 
whose parents are a part of that 37 percent illiteracy rate in 
the District of Columbia, at school, if you really want that 
child to become a participant in American democracy, you're 
going to have to spend more money to make that happen, and you 
have to spend that money wisely.
    If you take the figure that you quoted, of $13,317, and say 
that it is far and away the highest in the Nation, and we must 
place that in context. The Metropolitan Area School Boards 
Association has used economists that we have absolutely nothing 
to do with to come up with a system of comparing apples to 
apples, and oranges to oranges. And it is clear that Arlington 
spends the most money in this area in educating their students. 
The problem in the District of Columbia, which places us, in 
terms of the amount of money we expend, pretty much in the 
middle of Fairfax County and Montgomery County, we have to make 
sure that the right amount of money gets in the right programs 
with the right teachers and the right rooms. That is the real 
issue. And we must make sure that our goal of working with the 
Senate and the House, Senator Brownback, to develop the 
District of Columbia as a national laboratory for education 
which can serve as a model for the Nation has each segment of 
power doing their absolute best in terms of developing where we 
are going.
    There was an excellent report on facilities on channel 5 
last night, and I was interviewed coming in by one of the 
reporters, and I was asked who to blame. And I said, ``Well, 
you can blame the Senate, you can blame the House, you can 
blame the Mayor, you can blame the City Council, you can blame 
the school board, you can blame the parents, you can blame 
absolutely everyone, because over the last 40 years we have all 
abrogated our responsibility to these children.'' We not only 
must fulfill our responsibility, we must go beyond, and we must 
have something that you can feel a sense of ownership in. And 
we can only do that if we develop the best. And we cannot see 
any part of the system as a panacea.
    We have schools in the District that score higher on tests 
than any school in Fairfax County. We have charter schools that 
score lower than any public schools. We have charter schools 
that are more corrupt than any public schools. The Board of 
Education and the schools that fall under it, we have closed 
six schools because of fiscal mismanagement or outright 
corruption. We have a charter school who we believe has cracked 
the code and is teaching kids to read at a faster and more 
advancing clip than any public school. And we are working 
aggressively to engage them in a partnership with us so that we 
can learn from, use, and employ their code to help our own 
children.
    Dr. Janey is the first permanent superintendent that this 
Board of Education has hired. And when you talk about his 
future here, we don't talk about it in terms of years, we talk 
about it in terms of decades, because we believe that we have a 
superintendent who knows how to run a school system, and we 
believe that all of the supports that he needs must be made 
available to him. He must be able to do multiyear budgeting. He 
must be able to identify, hire, and manage his own CFO. That 
does not mean that they need not ever support the city CFO, but 
it cannot continue to work the way it is when we have utility 
bills--an estimate is done--and this is millions of dollars--an 
estimate is done by the city CFO, and they deduct $30 million 
or so from our budget every year for utilities bills. We never 
receive specific bills. What incentive does that give the 
public school system to enter into green development, in terms 
of building energy savings, et cetera? And you're talking 
about, cumulatively--you're talking about, cumulatively, 
millions of dollars.
    I could go on and on. We don't have lobbyists on the Hill. 
We don't have lobbyists on the Hill. But it is very, very 
important for you all. And that is why I really congratulate 
you for using your imagination and having this at Hine. It is 
very important for you to have all of the information, all of 
the history, all of the context, because you finally have 
assembled a group of people who care, a group of people who are 
not looking to get contracts or to be elected to anything. 
Let's use that and work together to make this a national 
laboratory.
    Thank you very much.
    [The statement follows:]

               Prepared Statement of Peggy Cooper Cafritz

    Good afternoon Chairman Brownback, Senator Landrieu and members of 
the Senate Appropriations Subcommittee on the District of Columbia. I 
am Peggy Cooper Cafritz, president of the D.C. Board of Education 
(Board). I appear before you today to speak on the District of Columbia 
Public Schools (DCPS).

Strategic goals
    The Board has adopted the following goals to improve student 
achievement:
  --Adopt the best state academic standards that will ensure all 
        District of Columbia students meet the highest expectations for 
        knowledge and skills at each grade level. The Board is 
        committed to ensuring that the children of the District of 
        Columbia be competitive regionally and nationally.
  --Establish a comprehensive District-wide instructional system that 
        includes a new reading and math program, coherent curriculum 
        for all grades, unified and focused professional development 
        around the implementation of the new curriculum, regular 
        assessments of student progress, close monitoring of 
        implementation and strong accountability for results including 
        performance contracts for staff.
  --Build a world class business system for D.C. Public Schools to help 
        support teaching and learning and improve effectiveness and 
        efficiency in operations.
  --Adopt a discipline management plan, and partner with city and 
        community leaders to ensure the safety and security for all 
        District of Columbia school children.
  --Adopt the best practices to ensure that all D.C. Public School 
        students have a learning environment with model school 
        facilities that promote effective teaching and learning and 
        meet national standards for health and safety.
  --Eliminate court oversight over the special education programs by 
        establishing and providing cost effective special education 
        programs and services in the facilities of the District of 
        Columbia Public Schools.

Effective leadership--Dr. Clifford Janey
    With active participation of Mayor Williams, Chairman Cropp, City 
Administrator Robert Bobb and other stakeholders, the Board hired 
Clifford Janey as superintendent. The Board believes that the school 
system has hired a strong and experienced instructional leader, who 
will make the necessary systemic changes, implement and be held 
accountable for rigorous financial management, build a strong 
administrative infrastructure that will support the attainment of 
student achievement, and achieve the goals of the board. The Board is 
already witnessing palpable improvement in the management and direction 
of the school system. Recently, the Board approved the superintendent's 
recommendation to adopt new academic standards for language arts and 
mathematics from the State of Massachusetts, which are recognized as 
the most comprehensive and academically challenging in the country. 
These new academic standards for every grade will be implemented and 
included in the curriculum by the fall.

Strategic plan
    Dr. Janey recently presented his strategic plan that has as its 
singular focus--improved student learning. The strategic plan is a 
culmination of a collaborative effort with the D.C. Education Compact, 
whose membership consists of city leaders, business, philanthropic and 
higher education communities as well as students, parents, teachers and 
principals. Based on the recommendations from the Education Compact, 
Dr. Janey prepared the strategic plan, which will serve as the 
foundation for the master education plan, which will be introduced in 
December. The master education plan will articulate the 
superintendent's vision for education for years to come. The plan 
includes recommendations regarding academic program offerings, grade 
configurations, neighborhood or cluster delivery models, and special 
education instructional models.
    The record is clear--too many of our students are on the wrong side 
of the student achievement performance gap. The superintendent has 
outlined in his strategic plan a more effective program to help turn 
around low-performing schools--one that will replace the transformation 
model and reach more schools with additional support and resources and 
narrow the performance gap. Based on a successful model in 
Massachusetts, this plan aligns more closely with Federal standards in 
``No Child Left Behind.'' This model provides principals and teachers 
with tools to make more systemic changes. Schools that are in need of 
improvement--those failing to meet adequate yearly progress (AYP) 
targets for two consecutive years--will be served by on-site solutions 
teams: distinguished educators, who will coach principals; teacher 
specialists, who will coach teachers in each content area; and 
curriculum specialists, who will work with all school staff. To achieve 
AYP, a school district or State must achieve targeted proficiency 
testing levels for up to 9 groups of students and test 95 percent of 
the students who were enrolled for a full academic year.\1\ Those 
schools failing to meet adequate yearly progress for four or more 
consecutive years will require restructuring, including replacement of 
staff and outsourcing of operations. DCPS will contract with outside 
educational management organizations to help turn around the lowest 
performing schools.
---------------------------------------------------------------------------
    \1\ The nine groups are: the five major racial and ethnic groups, 
disabled, limited English proficient/non English proficient (LEP/NEP), 
eligible for free and reduced price meals and total group.
---------------------------------------------------------------------------
Capital improvements
    The Board's reform efforts to improve student achievement cannot 
succeed if students do not have a learning environment with model 
school facilities, which promote effective teaching and meet national 
standards for health and safety. The condition of D.C. schools is a 
legacy of inherited deteriorated buildings from the Federal Government 
and the continued underfunding of the facilities master plan. The 
District of Columbia public school system operates and maintains 147 
schools. The average age of a school building is 63 years. The Federal 
Government was an absent landlord when it had responsibility for the 
building and maintenance of schools. The unfortunate result is that 
most of the schools are not beacons of neighborhood pride--rather they 
are islands of neglect.
    Too many of our schools are in poor condition. According to the 
March 2005 ``transition capital improvement plan,'' almost half (48 
percent) of D.C. Public Schools are in poor condition, requiring urgent 
attention, 41 percent are in fair condition, and only 11 percent of 
D.C. schools are in good condition. The District of Columbia government 
has committed $147 million in fiscal year 2006 and $98 million per year 
in fiscal years 2007-2011 to fund the master facilities plan that 
actually costs $300 million per year to implement--a shortfall of 
almost $1.2 billion, which is the amount needed to fully fund the 
master facilities plan. The Council of the District of Columbia has 
acknowledged the inadequacy of the funding to support DCPS capital 
needs and proposed some additional capital funding for schools. The 
District cannot fund the entire amount needed to adequately ensure that 
all schools meet education, health and safety standards.
    Historically, facilities maintenance and repairs in the schools 
have also been underfunded. The industry standard for facility 
operations and maintenance funding is $2.20 per square foot for school 
facilities with a sustained maintenance program. DCPS' fiscal year 2005 
funding was $1.47 per square foot. The fiscal year 2006 budget request 
increases maintenance efforts to $1.76 per square foot and closer in 
line with industry standards. However, this increase will barely cover 
the backlog of work orders contributing to the deteriorating condition 
of D.C. schools.
    The immediate need to improve school facilities is a critical 
priority that requires the collaborative efforts of private and public 
officials, District of Columbia government agencies, congressional 
commitment and community and business leaders.

Collaborative efforts
    The Board recently approved a plan that identifies 10 schools where 
charter schools or appropriate D.C. agencies can share space. Co-
locating will explore accommodations for additional academy programs at 
the high school level, create opportunities to provide a combination of 
centers and increased inclusion classes serving special needs children, 
and will allow other city agencies to provide much needed human 
services to communities around the District. The co-location plan 
addresses short-term opportunities to use space and leverage facilities 
dollars that the charter schools have at their disposal to operate and 
improve DCPS. The plan provides a limited opportunity to fix and repair 
buildings above and beyond the funding allowed in the capital budget.
    The Board also adopted proposed rulemaking for public/private 
development partnerships to assist in the development of capital 
improvement programs. This effort will be complemented by the 
development of an office supervised by the superintendent, that is 
designed to develop public/private partnerships by working with the 
community, businesses and industries that are interested in assisting 
DCPS in the redevelopment of the schools. A great example is the 
redevelopment of the Oyster Bilingual Elementary School, which allowed 
DCPS to build a new school in exchange for land to accommodate the 
community's needs for more affordable housing and a new school.
    The Federal Government can help by partnering with the District. 
For example, the Federal Government gave D.C. Public Schools $6 million 
for libraries which provided for much needed technology improvement, 
books, paint and repairs. The Federal Government also gave D.C. Public 
Schools $4 million for 36 new playgrounds and renovated 54 playgrounds.
    The Federal Government can help close the school's capital funding 
gap by appropriating additional dollars to help meet the immediate 
capital improvement needs.
    The Board looks forward to working with you as we continue to 
improve student achievement and provide an environment that is 
conducive to learning for all District of Columbia children. Thank you 
for allowing me to testify today. I will be happy to answer any 
questions you may have.

    Senator Brownback. The reason I want to keep this moving 
along is, we're going to get called back to the Hill if we 
don't, and so I want to get everybody in.
    Ms. Cafritz. I'm sorry. I got carried away.
    Senator Brownback. I don't think anybody is looking 
particularly at the figures per student. It is the yield. Where 
are students' reading and math at, I think is the real rub of 
the numbers, and we'll pursue that more in some questions.
    Ms. Patterson.

STATEMENT OF KATHY PATTERSON, CHAIR, COMMITTEE ON 
            EDUCATION, LIBRARIES, AND RECREATION, 
            DISTRICT OF COLUMBIA
    Ms. Patterson. Thank you very much, and welcome back to 
D.C. issues, Senator Brownback, Senator Landrieu.
    I'm Kathy Patterson. I represent ward 3, in Northwest 
Washington. And, since January, I've been chair of the D.C. 
Council's Committee on Education. I've been on the Council 
since 1995, and I sought that position as a public school 
parent and advocate.
    The Council's priorities--and I will be very brief--the 
Council's priorities, include improving school facilities, 
ensuring accountability for the expenditure of funds, and 
directing resources to local schools. Additional goals--
promoting stable leadership, stable and adequate funding, and 
using our oversight to support the reform agenda.
    Part of promoting stability includes advocating for a 
multiyear budget for the school system. The superintendent's 
strategic plan focuses on the appropriate issues, but we, on 
the Council, need to shift our energies in support of those 
priorities from how much money is budgeted, to your point, 
Senator Brownback, to how well that money is spent to educate 
our children.
    And I will just highlight two of the issues that I hope the 
subcommittee can focus on.
    One, as I mentioned, is the need for facilities work. The 
systems facilities remain one of our highest priorities. We 
approved a budget that includes funding for capital for fiscal 
year 2006. We also approved additional funding for an 
additional special revenue source designed as a revenue fund of 
public-private partnerships to enhance in-house special 
education capacity, and facilitate co-location with public 
charter schools. It is my hope that this funding source can 
become the repository for Federal support, perhaps under 
Congresswoman Norton's Fair Federal Compensation Act, which 
would transfer Federal taxes already paid by individuals who 
work here into a designated infrastructure account. A parent 
led coalition, as you know, promotes 100 percent Federal 
funding to rebuild our schools. And I've included a summary of 
that effort in my testimony.
    The second agenda item I would recommend to the 
subcommittee--has been mentioned by Mrs. Cafritz, as well--is 
to create a transitional multiyear budget for D.C. public 
schools. This would mean a 3-year budget, beginning next July, 
when the school system transitions to a July-June fiscal year. 
A multiyear budget would promote stable planning and funding, 
but, in fact, requires an amendment to the D.C. charter. I've 
introduced a sense of the Council provision, to this end. And 
while my colleagues have not yet had an opportunity to weigh in 
on this, I'm hopeful they will be supportive, and I have a 
hearing set in June on this. I urge you to support it and 
champion that proposal.
    Noting, again, I speak as a committee chair, and I would 
recommend both the facilities issue and the multiyear budget to 
be considered among your own priorities.
    Thank you very much.
    Senator Brownback. Thank you. Those are a good couple of 
suggestions. We want to pursue those more with you.
    [The statement follows:]

                 Prepared Statement of Kathy Patterson

    Thank you for the opportunity to testify before the U.S. Senate 
Committee on Appropriations, Subcommittee on the District of Columbia. 
I am Councilmember Kathy Patterson. I represent Ward 3 in northwest 
Washington and since January, have served as chair of the D.C. Council 
Committee on Education, Libraries and Recreation. I have been a member 
of the Council since 1995, and I sought the position as a public school 
parent and advocate.
    The D.C. Council's formal responsibilities with regard to the 
public school system are as follows:
  --Consider and approve an annual budget for D.C. Public Schools 
        (DCPS) and public charter schools;
  --Consider and confirm the mayor's nominees for four members of the 
        Board of Education until we return to an all-elected Board in 
        two years;
  --Approve collective bargaining agreements and all contracts that 
        exceed $1 million over a one-year period, or are multi-year;
  --Provide oversight of the school system; and
  --Consider and approve changes to the D.C. Code that affect schools. 
        Last year, for example, we approved legislation retaining a 
        Board of Education as the policy-making body that governs DCPS. 
        We also approved legislation transferring the function of 
        school security from DCPS to the Metropolitan Police 
        Department.
    It is important to understand both the breadth of and the 
limitations on the Council's role with regard to public schools. Under 
the Home Rule Charter, the Board of Education is the policy-making 
entity governing DCPS. The Council approves a budget each year, but may 
not direct how those funds are spent. Our principal formal means for 
promoting accountability is the bully pulpit of open, televised Council 
oversight hearings. We serve accountability by asking hard questions 
and doing the follow up to make sure we receive candid and complete 
answers. We use our annual consideration of the school system budget as 
an opportunity to secure the kind and level of accountability for the 
expenditure of public funds that is expected by the public we serve.
    The Council's priorities for the D.C. Public Schools include 
improving school facilities; ensuring accountability for the 
expenditure of public funds; and directing resources to local schools. 
In addition to these priorities established by the Council in our 
annual planning process, my goals as chair of the Committee include 
promoting stable leadership, providing stable and adequate funding, and 
using oversight to promote steady progress on the school system's 
reform agenda, including comprehensive new educational standards and 
strengthened professional development.
    Part of promoting stability includes advocating for a multi-year 
budget for the school system, a subject I will come back to and one I 
expect will be discussed by other witnesses today. The superintendent's 
strategic plan for DCPS focuses squarely on the core issues of teaching 
and learning--a strong curriculum, welcoming and safe schools, and 
well-prepared principals and teachers--and I believe that a multiyear 
budget will enable us to concentrate on the implementation of that 
plan. In other words, we need to shift our energies from how much money 
is budgeted and spent to how well our money is spent to educate our 
children.
    Another specific policy goal of mine is promoting and funding 
universal pre-kindergarten in the District of Columbia. Unlike most 
school systems, we already serve roughly half of the city's 4-year-olds 
in D.C. Public Schools. Given the extensive research on the importance 
of good early childhood education, particularly for disadvantaged 
populations, there is no question that we should be serving all 4-year-
olds and moving from there to provide all 3-year-olds with quality pre-
K education.
    My Committee agenda also includes oversight on the public charter 
school law and I anticipate one or more hearings on this subject in the 
fall. There are several specific issues to be addressed, including the 
funding process and issues of financial liability when a charter school 
closes, and I expect a range of other issues will be raised during the 
course of testimony.
    Another way that the Council, working in partnership with the Mayor 
and his cabinet, can promote education reform in the District of 
Columbia is by ensuring that other government agencies--such as the 
Department of Human Services, the Department of Health, and the Child 
and Family Services Agency--help children come to school ready to 
learn. Supporting children and their families is one of my priorities 
as Education Committee Chair, and I am encouraged by some of the 
efforts underway to intervene early on behalf of children and 
strengthen the safety net for children and their families.
    For example, the Department of Mental Health has placed highly 
qualified mental health professionals in 29 schools. These 
professionals, who divide their time among prevention, early 
intervention, and targeted interventions, help break down barriers to 
learning by helping students deal with family problems and issues 
pertaining to violence. A recent report found that there are fewer 
suspensions, fewer referrals to special education, and an improved 
climate in the schools where these mental health professionals are 
working. The fiscal year 2006 budget will support the expansion of this 
program to 15 more schools.
    An inter-agency group that includes leaders from DCPS, the Child 
and Family Services Agency, and the D.C. Family Court, has also been 
confronting chronic truancy--a problem associated with child abuse and 
neglect, gang activity, criminal activity, and dropping out of school. 
Starting with elementary school students in order to promote 
prevention, the group has developed procedures to contact families 
whose children have too many unexcused absences, ultimately resulting 
in a report of educational neglect to CFSA if there is no change in 
behavior. Children identified as chronically truant and their families 
are referred for a range of social services, and as a result of this 
comprehensive effort, the truancy rate for elementary school students 
has been cut in half this year. The program will now be expanded to 
middle school students.
    I would now like to describe where I think DCPS has been; where the 
system is today, and what I would recommend as an agenda for this 
committee with regard to public schools.
    I have been involved in public school advocacy for 15 years--11 
years on the Council and several years prior to that, from the point at 
which my children entered public school and I began my own education on 
the school system. During my tenure on the Council, the D.C. Public 
Schools have had seven superintendents. There have also been four 
different and distinct institutions standing in the shoes of the Board 
of Education. The mayor and Council have gone through two long and 
contentious debates over whether there will be a Board of Education, in 
2000 and again last year.
    It is not possible to serve children well when the leadership is 
topsy turvy; when it changes by the month. The best education reform 
plans in the world--and those of former Superintendents Franklin Smith 
and Arlene Ackerman were sound--cannot succeed without time, 
perseverance, buy-in from the political establishment and confidence on 
the part of parents and staff.
    What we have today in D.C. Public Schools is a chance for 
stability. That is the reason I am more optimistic about the future of 
the public schools than at any other point in my tenure on the Council. 
Local political leaders settled the issue of the system's governance 
structure. We will have a Board of Education comprised of five elected 
members and four appointed members for four more years, then move to an 
all-elected Board. Though there is one more change coming, the 
knowledge that this issue has been debated and resolved promotes 
stability.
    The leadership of the city--Mayor Williams, Chairman Cropp and my 
predecessor as committee chair, Councilmember Chavous--were invited by 
the Board of Education to participate in a superintendent search last 
year, and they recruited and hired Dr. Janey, from whom you will hear 
this morning. This is not his first superintendency, and that is 
significant. This is only the second time in recent history that the 
D.C. Public Schools have been led by someone who had served as a 
superintendent before; who is not doing on-the-job training. The Board 
itself is gaining in experience; two new members elected last year 
bring energy and patience--but patience that is not without limits, and 
that is a good thing in and of itself.
    The Council recently completed work on the DCPS budget for fiscal 
year 2006. The Board proposed a budget of $775 million, and noted 
another $38 million in unbudgeted needs. The mayor proposed a budget of 
$800 million, including funding to meet what had been described as 
unbudgeted needs to support the superintendent's reform initiatives, 
including comprehensive reading and math programs; art and music 
programs; parent and family resource centers; a summer bridge program 
for students entering high school; and the purchase of new textbooks 
aligned with the new curriculum standards.
    The Council added roughly $15 million to avert local school staff 
reductions while the school system reevaluates its local schools 
funding formula, along with $4.7 million in equivalent per-pupil 
funding for the public charter schools. Even with those funding 
increases approved by both the mayor and the Council, the DCPS 
leadership claims to need additional funds to cover raises that might 
be negotiated with school labor unions, and additional special 
education costs.
    It is my hope, and I have made this clear to both Dr. Janey and 
President Cafritz, that the Council's Education Committee can assist 
the Superintendent and Board as they revise their fiscal year 2006 
operating budget to take into account the additional funds, and the 
additional spending needs. The Office of the Chief Financial Officer is 
reviewing special education spending, with a particular focus on 
private school tuition payments, and I am hopeful that that audit will 
provide options to better manage expenditures. And the superintendent 
initiated a comprehensive, comparative finance study by the Council of 
the Great City Schools (CGCS), to complement the academic study by the 
CGCS released early last year. I hope that this study will help the 
Board in reviewing the system's expenditures.
    The school system's facilities needs also remain as one of the 
highest priorities for members of the D.C. Council. The budget just 
approved includes $147 million in capital funding for fiscal year 2006, 
and the Council approved an additional $12.2 million to cover debt 
service for additional capital funding. That additional funding is 
designed as a special revenue fund to promote public-private 
partnerships, enhance in-house special education capacity and 
facilitate co-location with public charter schools. We are still 
working out the details of that special funding among Councilmembers, 
the Board and the Williams administration and will finalize the 
legislative language early next month.
    This legislation will dovetail with the Williams administration's 
work to improve our overall planning and budgeting for capital 
investments. Based on recommendations from a study conducted by the 
Brookings Institution and the 21st Century School Fund, the Office of 
the City Administrator established a Technical Review Team this year to 
identify opportunities for cost efficiencies through co-located 
facilities. This is particularly important for DCPS. The school system 
develops its capital budget distinct from the city's process, and 
responding to the school system's own needs and priorities. There is, 
now, a growing recognition on the part of both the school system and 
the mayor's office that public-public partnerships can improve our 
overall investment in our neighborhoods.
    One example that began in 2002 is a new Stoddert Recreation Center 
in my ward: the center including a gymnasium and meeting rooms will be 
built by the Department of Parks and Recreation, but in partnership 
with DCPS and on school property so that Stoddert Elementary School can 
have--for the first time!--a large enough facility for all-school 
events. It is my hope that the special revenue fund proposed by Council 
Chair Linda Cropp can support this effort of the Williams 
Administration and strengthen our public investments over the long 
term.
    This brings me to what I hope will become an agenda for this 
subcommittee: assisting in securing additional federal support to meet 
the facilities needs of D.C. Public Schools. I hope to see the special 
revenue fund we are creating become a repository for federal support, 
including funding based on Congresswoman Norton's Fair Federal 
Compensation Act. That legislation would transfer federal taxes already 
paid by individuals who work in the District of Columbia into a 
designated D.C. infrastructure account. A significant portion of that 
funding can, and should, be allocated for school facilities. A parent-
led coalition has, as you know, promoted 100 percent federal funding to 
rebuild the District's schools, and I have attached a summary of the 
PROP 100 proposal to my testimony.
    I am an elected official and an appropriator, and I do not enjoy 
asking for federal dollars: but the need is obvious and it is large. 
And as long as District taxpayers continue to pay the bill for police 
protection for the President of the United States, I will be sanguine 
coming here and asking for federal support to improve the bricks and 
mortar that house District school children. The District's ability to 
borrow additional funds is significantly constrained by our per-capita 
debt, one of the highest in the nation, which makes federal support for 
our infrastructure needs even more imperative.
    There is a second agenda item I would urge the Committee to 
consider, one I mentioned earlier. Dr. Janey and President Cafritz have 
asked the Council to consider a transitional multiyear budget for D.C. 
Public Schools. This would mean a 3-year budget beginning next July 
when the school system transitions to a July-June fiscal year. A 
multiyear budget will promote stable planning and funding, but would 
require an amendment to the District of Columbia Charter. I have 
introduced a sense of the Council provision to this end, and while my 
colleagues have not had an opportunity to weigh in on this issue, I am 
hopeful that they will be supportive. I will hold a public hearing on 
this legislation on June 23 and hope to see the charter amendment acted 
on by the Congress by the end of the year. I urge you to support and to 
champion that proposal, noting, again, that I speak as the Committee 
chair and not for the full Council.
    Thank you for this opportunity to provide testimony on D.C. Public 
Schools, and I will be happy to respond to the Committee's questions.

    Senator Brownback. Mr. Nida.

STATEMENT OF THOMAS NIDA, CHAIR, D.C. PUBLIC CHARTER 
            SCHOOLS BOARD
    Mr. Nida. Good afternoon, Senators Brownback and Landrieu. 
My name is Tom Nida. I am the chair of the D.C. Public Charter 
School Board, one of the two authorizers for charter schools in 
the District of Columbia.
    This year, the charter school enrollment totals nearly 
16,000 students; and, of that number, the Public Charter School 
Board is responsible for overseeing schools that involve 
roughly 12,000. What's interesting is, we currently have 26 
schools operating on 31 campuses. There are eight new charter 
schools under our tutelage that are scheduled to open in this 
coming fall. And we recently completed public hearings for 19 
new applications, potentially for the fall of 2006. So, 
clearly, the charter school movement in the District of 
Columbia is showing robust growth.
    One of the things that I would like to focus on is the 
pressure that brings on the facilities issue. I have attached 
to my testimony a spreadsheet that shows how each of the 
individual schools that are now open have dealt with their own 
respective facilities issues--as to owning, as to leasing, as 
to co-locating with DCPS and other options that they have done. 
This particular problem is exacerbated by the robust real 
estate market of the District of Columbia and the prices that 
schools are compelled to pay for either ownership or leasing in 
the very competitive and ever-increasing commercial rental 
market.
    Senator Brownback. That part, I'm familiar with, having an 
apartment that I purchased here recently. Wow.
    Mr. Nida. One of the things that concerns us on the Board 
is that many of the new schools that are opening, and some of 
the existing schools that are looking to expand existing 
successful programs, are finding a great deal of time, effort, 
and money being absorbed on the facilities issue, to the point 
where, frankly, it can be a distraction to their academic 
issues. So, that's something we're tracking as we listen to the 
applications for the new schools that would like to open in the 
fall of 2006.
    It's very clear that one of their major concerns across the 
board was this issue of finding adequate, affordable facility. 
And so, one of our hopes is that as a part of the District 
public school system, working in cooperation with 
Superintendent Janey and the others, that this issue of looking 
at co-location with existing facilities so that we could match 
up the demand for space with the supply of space and perhaps 
have the system overall end up as a net winner of that.
    In spite of the facilities issues, one other thing I'd like 
to highlight is the fact that with this growth we have found 
some interesting progress being made by the charter schools so 
far. And we don't have the 2005 numbers yet, because test 
results are still incoming, but in the last year we saw--the 
number of schools that made AYP, in total, grew from three in 
the previous year to nine. And most of these are elementary 
schools. And it's starting to show that the kids coming into 
the system early and getting a good, rigorous education are 
showing immediate results with their fourth-grade test and 
other things.
    High school is a challenge, still. One of the things we're 
already tracking, besides AYP, is graduation rates, and one of 
the things we have found is that the high schools we have are 
now graduating anywhere from 81 to 100 percent of the senior 
class members. And, of those, three of seven, and soon to be 
four of eight, have 100 percent college acceptance rate. We've 
asked the schools to track their college graduation rates, too, 
because obviously getting into college is only half the fun; 
it's--getting them out of college as a graduate is where it 
really counts. What--we're impressed with the fact that the 
high schools have really taken the issue of developing their 
senior classes and getting them adequately prepared to go on to 
college, if that is, in fact, their choice to do so. We have 
others that are having active vocational programs that are 
preparing kids for the trades, if that's their option.
    We have found that a couple of our schools have had some 
outstanding results, which I would like to just briefly 
summarize, and then I'll conclude.
    One of our elementary schools, Arts and Technology Academy, 
for which I used to be board treasurer, has been cited by 
former Secretary Rod Paige in the 2004 National Charter Schools 
as one of the country's successful charter schools. I believe 
that was one of eight that was listed.
    We've heard reference to the Kipp schools. The Kipp schools 
have traditionally, here, produced outstanding results; and, 
most recently, more than 94 percent of their students were 
either at or above the national average in math--not just 
basic, but the national average; and more than 60 percent 
scored at or above the national average in reading.
    We had another school, in its first year--D.C. Preparatory 
Academy--made AYP in its very first year. We have a school that 
has co-located one of its campuses. This is Maya Angelou, which 
handles the tough task of at-risk kids. They have graduated 91 
percent of their seniors; 70 percent of those seniors were 
accepted at college. And they have received a grant from the 
Bill and Melinda Gates Foundation for replicating their small 
high school classroom size and programs. And so, we see good 
results beginning to emerge.
    This is still a young movement, we're all still in a 
learning curve. One of the challenges for the Charter School 
Board is to look at its role as an authorizer and begin to 
shift our focus away from the initial focus on process 
compliance to performance accountability.
    And we've had a lot of information about incomes. Now we 
need to talk about outcomes. And so, our focus is going to be 
driven more and more by looking at how our schools are 
producing results, as measured by test scores, graduation 
rates, and other measures of success for our students.
    And, with that, I'll conclude.
    [The statement follows:]

                   Prepared Statement of Thomas Nida

    Good afternoon Chairman Brownback and members of the Subcommittee. 
I am Thomas Nida, Chair of the D.C. Public Charter School Board (PCSB) 
and I am pleased to come before you today to discuss the progress of 
public charter schools under the authority of the PCSB and the 
importance of the financial support provided to charter schools under 
the School Reform Act.
    This year, nearly 16,000 students from every ward of the city 
enrolled in 42 public charter schools on over 50 campuses spread 
throughout the city. That amounts to approximately 21 percent of the 
total public school population. The PCSB (our board) provides oversight 
for 26 public charter schools on 31 campuses, serving more than 11,500 
students. The remaining schools are authorized by the D.C. Board of 
Education. Please note the enrollment trend over the past five years, 
included in my written testimony.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As you are well aware, the charter school law was created to 
address concerns about how the city was providing public education to 
its families. The intention was to give D.C. families the opportunity 
to choose the most appropriate educational settings for the children, 
from among a number of public school choices, including the assigned 
neighborhood school. Local education reform leaders thought increased 
competition, and more opportunities for innovation in public schools 
would raise achievement throughout the city. The D.C. Board of 
Education and the D.C. Public Charter School Board were established to 
authorize these independent public schools, with the understanding that 
only the strongest applications would be approved, and that they would 
be monitored and held accountable for their results. Engaging students 
and helping them achieve academic excellence are the most important 
goals for public charter schools. Our Board's primary responsibility is 
to act in the best interest of those students, by maintaining high 
standards of accountability, supporting schools, and making difficult 
decisions when necessary. The charter school bargain is greater 
autonomy in exchange for greater accountability.

The Board's Role
    The D.C. Public Charter School Board was established in 1997, and 
has since developed an oversight process that has become a model for 
authorizers throughout the United States. It provides important 
feedback for schools as they strive to serve the diverse needs of their 
students, and it informs parents and policy makers about how 
effectively students are being served in each school. The Board's 
oversight includes: annual reviews of the academic program, compliance 
with the charter law, and special education provisions; a review of 
monthly or quarterly financial reporting, and annual financial audits; 
standardized test score analysis and NCLB report cards; quarterly 
charter school leaders' meetings, and communications with school 
leaders, as needed, on local and federal policy updates; and Five-Year 
Review to determine cumulative progress and school continuance.
    Each year, we share the results of our oversight with the community 
by producing the School Performance Reports. The annual School 
Performance Reports offer a comprehensive look at the results of all of 
the reviews, financial reporting, test score analysis, including No 
Child Left Behind (NCLB) report cards, and Board actions, for each 
individual school. The document is available on our website, at 
www.dcpubliccharter.com, and is mailed directly to community 
stakeholders who request it, as well as local and federal government 
officials, including members of this Committee. Parents and 
policymakers have indicated that it is a very useful tool, enabling 
them to make decisions in the best interests of students.
    Parents and students throughout this city enroll in public charter 
schools based upon their trust in the accountability system. 
Accountability includes meeting the goals agreed upon in the school's 
accountability plan, or accepting the consequences. Parents, students, 
community members and public officials hold this Board accountable to 
that principle, and we take that responsibility seriously.

Charter School Progress
    Overall we are pleased with the progress we saw at the end of the 
past school year. Yet, we recognize that there is still much work to be 
done to bring all students to the levels of academic achievement we all 
know they are capable of reaching.
  --In 2004 the number of schools that made Adequate Yearly Progress 
        (AYP), as required by the NCLB Act, tripled to nine. Several 
        schools narrowly missed meeting AYP because of one subgroup. 
        The schools that did not make AYP used the data in their AYP 
        report cards, and technical assistance and training provided by 
        our Board to develop school improvement plans to better address 
        the needs of all of their students. They are using these 
        resources to tailor instruction to the specific needs of 
        students who did not meet the standards, while continuing the 
        progress of those who did. The Board is confident that with 
        this approach, we will again see exponential growth of the 
        number of schools making AYP this school year.
  --Most of the schools that made AYP were elementary charter schools. 
        A great majority of those schools begin their programs with 
        Pre-K programs and have proven the theory that starting early, 
        extending instruction time, and tailoring instruction to 
        individual needs will help to close the achievement gap.
  --One of those schools, Arts and Technology Academy, located in 
        Northeast Washington, was recognized by U.S. Secretary of 
        Education Rod Paige at the 2004 National Charter School 
        Conference, and in the Department's ``Successful Charter 
        Schools'' publication. Their infusion of fine arts, the 
        performing arts and technology into their curriculum is proving 
        to be quite successful with their student population.
  --While historically middle and high schools have struggled, the most 
        to improve test score performance, a few of our schools have 
        defied the trend. KIPP/DC KEY Academy, a middle school located 
        in southeast Washington, with a high percentage of low-income 
        students, demonstrated that income and zip code do not 
        determine ability or potential. A little more than 94 percent 
        of their students scored at or above the national average in 
        math; 60 percent scored at or above the national average in 
        reading.
  --Another of those schools is D.C. Preparatory Academy. This middle 
        school, located in the Edgewood neighborhood in Northeast, made 
        AYP in its first year of operation. The rigorous college-
        preparatory program, offering an extended year program with a 
        mandatory Saturday academy, and character education, has 
        garnered strong parental support. Many of their students 
        entered school in the fall below grade level, yet by the April 
        test 78 percent were proficient in math and 56 percent were 
        proficient in reading, according to their AYP report card.
  --Two of the eight high schools under our authority--WMST and SEED--
        made AYP this year. Only two other non-selective high schools 
        in the city made AYP. It is a testament to the efforts and high 
        expectations of those high schools, which accept students 
        wherever they are academically and challenge them to succeed. 
        The other charter high schools are working very hard to raise 
        every student's achievement to meet the expectations, and are 
        demonstrating success in other important areas. We are 
        confident that, in the process, additional high schools will 
        meet their own and NCLB expectations next year.
  --High school graduation, college acceptance and attendance rates 
        have been significantly higher than the city-wide or national 
        average for urban populations. The table below tells the story.

                              [In percent]
------------------------------------------------------------------------
                                                 Graduation    College
                  High School                     Rate in     Acceptance
                                                    2004         Rate
------------------------------------------------------------------------
Cesar Chavez..................................           91          100
Friendship Edison Collegiate Academy..........           92           81
Marriott Hospitality..........................           80           70
Maya Angelou..................................           91           70
News School for Enterprise & Development......           81          100
SEED..........................................          100          100
Thurgood Marshall Academy.....................      ( \1\ )      ( \1\ )
Washington Math Science and Tech..............           90           98
------------------------------------------------------------------------
\1\ First graduating class in June 2005.

  --In the spring 2004, Cesar Chavez Public Charter High School for 
        Public Policy, New School for Enterprise and Development and 
        SEED, all graduated 91 percent, 81 percent and 100 percent of 
        their seniors, respectively, and all three reported that 100 
        percent of their graduates were accepted to at least one 
        college or university. Friendship's Collegiate Academy and WMST 
        each graduated over 90 percent of their seniors and reported 
        that 81 percent and 98 percent, respectively, were accepted to 
        institutions of higher education. Marriott Hospitality 
        graduated 80 percent, sent 70 percent to college and trained 
        and placed the remaining students in the local hospitality 
        industry.
  --Maya Angelou, a school that does a remarkable job of engaging 
        students who have dropped out, or are at-risk of doing so, 
        graduated 91 percent of its seniors, and reported that nearly 
        70 percent of those students were accepted to college. The 
        school's model of very small class size, personalized 
        instruction, focus on the humanities, and entrepreneurship and 
        job skills training, gained the attention of the Bill and 
        Melinda Gates Foundation, which has provided a grant to 
        replicate the model in several other small campuses throughout 
        the city. As a part of that effort, the school's founders were 
        also able to work out a collaborative arrangement with DCPS. 
        They are co-locating a second campus in the Evans Middle School 
        building in Southeast Washington this year. In exchange for a 
        favorable lease arrangement, they are providing much-needed 
        maintenance and up-grades to the building, and DCPS is 
        referring high school students who have had difficulty, and are 
        at-risk of dropping out of its system to the new Maya Angelou 
        campus.
  --Friendship Edison's Collegiate Academy, located in Northeast 
        Washington, began its Early College Program this year, giving 
        80 selected students an opportunity to take college-level 
        courses through a partnership with the University of the 
        District of Columbia.
  --All of the charter schools under this Board's authority submitted 
        budgets which indicated sound planning and fiscal 
        responsibility. Staff members carefully review school finances, 
        ensuring that public charter schools under our oversight are 
        effective stewards of public funds. In 2000, the Board worked 
        with the Office of the Chief Financial Officer (OCFO) to 
        develop policies and procedures for charter school audits. This 
        spring, the PCSB has worked with the Board of Education's 
        Charter Schools Office as well as the Office of the Chief 
        Financial Officer's staff to update those policies, to ensure 
        that public charter school financial audits meet high 
        standards. These three entities worked together to create a 
        list of approved auditors for public charter schools, to ensure 
        that auditors have extensive experience performing audits of 
        non-profit organizations according to Government auditing 
        standards, as required by law.
  --Several schools made progress this year in securing more adequate 
        facilities for their programs. Capital City, Carlos Rosario 
        International, D.C. Preparatory Academy, and William E. Doar, 
        Jr. moved into newly renovated buildings that are sources of 
        pride for those schools and their communities. However, many 
        other charter schools are still struggling to acquire adequate 
        affordable facilities to accommodate their enrollment plans. 
        Tree of Life and Two Rivers managed to secure temporary space 
        in underutilized DCPS buildings just before school started this 
        year, thanks to the assistance of the former Interim 
        Superintendent Robert Rice. Future charter schools will face 
        these same challenges, while they simultaneously establish 
        their educational programs and recruit staff and students. This 
        is a challenge that this Board hopes to work through in a 
        collaborative effort with Dr. Janey, city leaders, and public 
        and private community members.
  --All of the schools under our oversight are striving for 
        accreditation. The process requires that a school be in 
        operation for at least two years to begin, and then takes 
        approximately two years to complete. Five schools, all of which 
        were a part of the first cohort of schools to open seven years 
        ago, have completed the accreditation process. Three of those 
        schools have been given official notification of their 
        accreditation status; two others are expecting notification 
        soon. Several others have become candidates for accreditation 
        or are beginning the process this year.

Facilities Still An Issue
    The majority of public charter schools have been forced to acquire 
school buildings on the commercial market, which we all know is both 
competitive and expensive. Each year they invest millions of dollars of 
public money in privately-owned buildings, many of which are leased. A 
chart demonstrating the current facilities status of each school we 
oversee is attached.
    Many charter school leaders have expressed their preference for 
former DCPS, or city-owned buildings, and have been repeatedly 
frustrated in their efforts to acquire them. It would seem in the best 
interest of the community and the city to allow charter schools to 
invest that money in publicly-owned buildings; it is especially timely, 
but also daunting because many DCPS buildings are in dire need of 
repair and/or renovation.
    The most recent offerings from DCPS included one-year leases to 
charter schools, which would not be finalized until July of this year. 
The temporary nature was to address the dire need, while Dr. Janey and 
other stakeholders work on the education master plan. This option, 
despite the less than ideal timeline, would be more beneficial to 
start-up schools, but less so for existing schools needing to expand. 
Last year, Two Rivers and Tree of Life received leases to co-locate in 
DCPS buildings in August, just weeks before the start of school. They 
scrambled to make repairs and renovations and miraculously moved-in on 
time. If not for these opportunities, Two Rivers would have had to 
delay its opening a year, and Tree of Life, a school abruptly moved out 
of its facilities by development interests, may have had to close.
    Under the current circumstances, not all of the buildings listed as 
available for co-location would be used this fall. Our suggestion, in 
support of those schools that will need the space this fall, would be 
extend the lease to at least two years. This is a more reasonable time 
line for schools to get a better return on renovation investments, and 
to prepare themselves and alternative facilities for permanent 
occupation.

Overview of the Board's Budget Proposal
    Our intention is to continue our most effective practices, and to 
make intelligent investments, which will enable the Board to maintain 
the quality and integrity of its work, while containing the growth of 
its operations.
    The Board requested an appropriation of $975,000 for fiscal year 
2006, to meet its increasing responsibilities. In addition to the 
twenty-six schools the Board currently oversees, nine new schools have 
been approved to open this fall, and several existing schools will 
increase enrollment in accordance with their charters. The number of 
schools chartered by this Board will increase by approximately 38 
percent this fall, with an enrollment estimated to reach nearly 15,000 
students. We have determined that appropriate investments in additional 
staffing, expert consultants, office facilities, data collection and 
analysis, and other technologies will enable the Board to fulfill its 
mission, while also streamlining its practices, for long-term cost 
efficiencies.
    Since its inception, the Board has maintained the highest levels of 
fiscal responsibility and has consistently produced clean audits for 
review by our stakeholders. Nonetheless, we continue to look for ways 
to be more efficient stewards of public money.
    One major goal is to enhance the Board's capacity to collect, 
analyze, report and store data, to more effectively monitor and support 
schools, work collaboratively with the state education agency, and to 
provide more information to the public about charter school 
performance. This will require significant technology investments in 
the next year, for long term use.
    The Board anticipates hiring one to two additional full-time staff 
persons to manage its increasing oversight responsibilities. The Board 
will also increase its use of a cadre of expert consultants to review 
charter applications, financial reports and yearly audits, and provide 
technical assistance to the schools it has authorized. The reviews and 
monitoring processes will be streamlined, such that high-performing 
schools will be rewarded with less frequent routine monitoring, while 
newer schools and those that struggle will receive more targeted 
attention from staff and consultants.

Conclusion
    The Board is proud to be a part of the solution for improved public 
education in this city. We commend Dr. Janey's leadership and the 
exhaustive efforts of his administration. The strategic plan is very 
thoughtful and offers great opportunity for improved delivery of 
instruction to DCPS students. It is our intention to be collaborators 
with Dr. Janey and all of the other major stakeholders at this very 
critical juncture. We are hopeful that the collaboration already begun 
will grow into a long-term city-wide effort that will bring about 
excellence in all D.C. public schools--traditional and charter. The 
citizens, community partners and public officials can rely on this 
Board to execute its responsibilities with an intense focus on quality, 
accountability and progressive results for District of Columbia 
families.
    Thank you for this opportunity to share our perspective. I invite 
any questions you may have at this time.

                                     CURRENT FACILITIES SUMMARY: CHARTER SCHOOLS OF D.C. PUBLIC CHARTER SCHOOL BOARD
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                            Bond
             School                      Street Address            Quad     Ward        Facilities        Financing                Comments
--------------------------------------------------------------------------------------------------------------------------------------------------------
The Arts & Technology Academy    5300 Blaine St................  NE......       7  Own/DCPS............          X
 PCS.
Capital City PCS...............  3047 15th St..................  NW......       1  Own.................          X   Former church
Carlos Rosario International     1100 Harvard St...............  NW......       1  Lease/UDC...........          X   Long term groundlease (former
 PCS.                                                                                                                 Wilson Teachers College/UDC
Cesar Chavez PCHS for Public     3855 Massachusetts Ave........  NW......       3  Lease \1\...........  ..........  To relocate to new campus in Ward 7
 Policy--MS/HS.
Cesar Chavez PCHS for Public     1346 Florida Ave..............  NW......       1  Lease \1\...........  ..........  Co-location (Meridian & BTW);
 Policy--HS.                                                                                                          relocating to new site in Ward 6
D.C. Bilingual PCS.............  1420 Columbia Rd..............  NW......       1  Lease...............  ..........
D.C. Preparatory Academy PCS...  701 Edgewood St...............  NE......       5  Own.................  ..........  Former warehouse being built out in
                                                                                                                      two phases
E.L. Haynes PCS................  3029 14th St..................  NW......       1  Lease...............  ..........  Sublet from Capitol City, 2nd floor
                                                                                                                      space above CVS retail
Eagle Academy PCS..............  770 M St......................  SE......       6  Lease...............  ..........  Co-location (KIPP & WMST), former
                                                                                                                      DC Transit car barn
Friendship Edison--Chamberlain   1345 Potomac Ave..............  SE......       6  Own/DCPS............          X
 Campus.
Friendship Edison--Woodridge     2959 Carlton Ave..............  NE......       5  Own/DCPS............          X
 Campus.
Friendship Edison Collegiate     4095 Minnesota Ave............  NE......       7  LT lease/DCPS.......          X
 Academy--Woodson Campus.
Friendship Edison Junior         725 19th St...................  NE......       6  Own/DCPS............          X
 Academy--Blow-Pierce Campus.
Howard Road Academy PCS........  701 Howard Rd.................  SE......       8  Own.................          X   New construction
KIPP-DC/KEY Academy PCS........  770 M St......................  SE......       6  Lease...............  ..........  Co-location (Eagle & WMST)
KIPP-DC/KEY Academy PCS........  Will open second campus in      ........  ......  Lease...............  ..........  Will lease current TMA site at 421
                                  fall 2005.                                                                          Alabama Ave
Marriott Hospitality PC High     410 8th St....................  NW......       2  Lease...............  ..........
 School.
Maya Angelou PCS--Evans Campus.  5600 East Capitol St..........  NE......       7  Lease/DCPS..........  ..........  Co-location w/DCPS
Maya Angelou PCS--Shaw Campus..  1851 9th St...................  NW......       1  Lease...............  ..........  Leased from related foundation,
                                                                                                                      former Odd Fellows Lodge
Meridian PCS...................  1328 Florida Ave..............  NW......       1  Lease...............  ..........  Co-location (BTW & Chavez), former
                                                                                                                      Manhattan Laundry
New School for Enterprise &      1920 Bladensburg Rd...........  NE......       5  Own.................  ..........  Former warehouse
 Development PCS.
Paul PCS.......................  5800 8th St...................  NW......       4  Lease/DCPS..........  ..........  Conversion from DCPS
The School for Arts in Learning  1100 16th St..................  NW......       2  Co-owned............          X   Former Strayer College
 (SAIL) PCS.
Sasha Bruce PC Middle School...  745 8th St....................  SE......       6  Lease...............  ..........  Co-location (Options), former
                                                                                                                      Kingsman Elementary
The School for Educational       4300 C St.....................  SE......       7  LT ground lease.....          X   New construction-boarding school
 Evolution & Development (SEED).
SouthEast Academy of Scholastic  645 Milwaukee Pl..............  SE......       8  Own.................  ..........  Former Safeway store/trailers
 Excellence PCS.
Thurgood Marshall Academy PCS..  421 Alabama Ave...............  SE......       8  Lease \1\...........  ..........  Church building, relocating to
                                                                                                                      former Nichols Elementary
The Tree of Life Community PCS.  2315 18th Place...............  NE......       5  Lease/DCPS--own.....  ..........  Co-location w/DCPS/construction on
                                                                                                                      newly purchased facility
Tri-Community PCS..............  Soldier's Home................  NW......       4  Lease \1\...........  ..........  AFRH bldg/trailers
Two Rivers PCS.................  1830 Constitution Ave.........  NE......       6  Lease/DCPS--own.....  ..........  Co-location w/DCPS (Elliot Jr HS);
                                                                                                                      recent purchase of 401 Florida
                                                                                                                      Ave, NE; renovation to begin
Washington Math, Science &       770 M St......................  SE......       6  Lease...............  ..........  Co-location (KIPP & Eagle)
 Technology PCHS.
William E. Doar, Jr. PCS.......  705 Edgewood St...............  NE......       5  Lease...............  ..........  Former warehouse, being developed
                                                                                                                      as a multi-school facility

   SCHOOLS OPENING FALL 2005

Academy for Learning through     ..............................  ........  ......  ....................  ..........  Looking
 the Arts.
Academia Bilingue de la          ..............................  ........  ......  ....................  ..........  Looking for temporary space;
 Communidad.                                                                                                          permanent space is not ready
Appletree......................  ..............................  ........  ......  ....................  ..........  Facilities secured tentatively
Bridges........................  ..............................  ........  ......  ....................  ..........  Facilities secured tentatively
Early Childhood Academy........  ..............................  ........  ......  ....................  ..........  Status uncertain
Hope Community.................  ..............................  ........  ......  ....................  ..........  Looking
Howard University Middle School  On/near Howard Univ. campus...  NW......       1  ....................  ..........  Facilities secured; provided by HU
 of Math & Science.
Potomac Lighthouse.............  ..............................  ........  ......  ....................  ..........  Looking
Youth Build....................  ..............................  ........  ......  ....................  ..........  Facilities secured but under
                                                                                                                      renovation
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Relocation pending.

NOTES:
Own=purchased commercial/industrial property.
Own/DCPS=purchased former DCPS school.
Lease=commercial/industrial/retail property.
Lease/DCPS=lease DCPS school property.
Bond financing=DC Revenue Bonds issued.

    Senator Brownback. Thank you, Mr. Nida.
    I remember when I first worked on D.C. issues in 1997, I 
think you only had about seven or eight charter schools at that 
point in time. This was a fairly early--a nascent time. And I 
think there was one that had to be decertified because it was 
having certain types of problems that were going on. So that is 
quite a growth that you have seen take place.
    My colleague, Senator Landrieu, is deeply concerned and 
interested in the education issue, and is here, and has an 
opening statement to make.
    Senator Landrieu.
    Senator Landrieu. Thank you, Mr. Chairman.
    I'm going to submit my full statement for the record.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Welcome this afternoon to the first hearing of the D.C. 
Appropriations Subcommittee held in a District public school. I want to 
first thank Hine Junior High School for hosting our hearing, and 
Principal Gary Rosenthal. Hine is often the community center for 
various neighborhood meeting and sports activities, such as soccer and 
baseball, of my adopted neighborhood, Capitol Hill, and I am pleased we 
are able to use this auditorium today.
    Mr. Chairman, I appreciate your attention to public education in 
the District and your desire to call a thoughtful and productive 
hearing, such as the one structured here. I look forward to hearing 
from the witnesses representing either elected or appointed 
governmental entities which oversee public education--Board President 
Peggy Cooper Cafritz, Superintendent Clifford Janey, Councilmember and 
Education Committee Chair Kathy Patterson, and Tom Nida, Board Chair 
and Jo Baker, Executive Director of the D.C. Public Charter School 
Board. These leaders are responsible for setting the academic policy 
for both traditional public schools and public charter schools, 
implementing that policy, oversight of individual schools, and 
developing the framework which supports our education system. I would 
also like to welcome our second panel, representing some of the best in 
public education advocacy and insight--Director Juanita Wade of the 
D.C. Education Compact, Director Ariana Quinones of the D.C. Charter 
School Association, and a distinguished parent Ms. Doris Olaseha.
    We are here today to gain a better understanding of the state of 
public education in the District. There are many figures and anecdotal 
stories bandied about to demonstrate the failings of the District 
public schools. And sometimes, if you listen hard or you are talking to 
some especially dedicated people, you hear some anecdotal stories about 
great successes, improvements, and shining stars in D.C. public 
education. This year one such star was recognized nationally for his 
contribution to his classroom and national excellence in education. Mr. 
Jason Kamras, a teacher at Sousa Middle School in Southeast D.C., was 
named the ``National Teacher of the Year'' by President Bush. This 
great honor was earned by a dedicated individual working in a shabby 
building, with inadequate materials, and the weight of a cumbersome 
system pressing down every day. His school did not even have an 
American flag to fly outside. Mr. Kamras received many accolades, well 
deserved, and I even sent him a flag flown at the U.S. Capitol for his 
school. But he has not received the kind of support every teacher needs 
for an excellent school system to thrive. I am sure there are many such 
jewels in the system and part of our task is to pick them up, polish 
them, expand and replicate what is working well, eliminate institutes 
and programs that are failing, and make sure they have the support 
critical to doing their jobs.
    I am very encouraged by the leadership in this room to develop 
concrete steps to improve the public education opportunities for 
children in the District. In preparation for this hearing we have 
reviewed Dr. Janey's newly released Strategic Plan, met with his 
impressive staff, including Chief Accountability Officer Meria 
Carstarphen, and their diligent work to develop a comprehensive reform 
plan for DCPS. In particular, I am impressed with Dr. Janey's quick 
work to develop a well-articulated plan for the $29.6 million Federal 
investment of the last two years. As many of you know, I fought for our 
$13 million annual investment to be held in reserve until the new 
superintendent arrived so that it would be tied to his overall reform 
plan--I am very encouraged that is exactly how the funds are being 
used.
    In addition, it is good to see growing cooperation among such a 
broad spectrum of the community. I would like to share a little bit of 
my philosophy on public education in the hope that we can find mutual 
priorities to improve the entire system.
    Great cities, Mr. Chairman, need great schools. I am a city person, 
having grown up in a city much like D.C., New Orleans, which has faced 
many of the same challenges of providing an equal education to all its 
residents. The purpose of the public education system in America 
mirrors much of the mission of the United States as it was formed--to 
provide an open opportunity to create, build, and contribute to our 
great nation. The purpose of the public education system in America is 
for all young people to have the same opportunity to learn and the 
encouragement to work in any area--from business, to medicine, to 
government. Our mission was to encourage a creative workforce which 
would, and has, driven the innovation America is known for.
    But the public education system that served us for so long is 
facing many challenges--and it must change and adjust. It must be more 
consumer focused and less bureaucratic, more dynamic. We must raise our 
expectations of our students, teachers and administration to be 
excellent in every school.
    D.C. itself has suffered a decline in enrollment of 2,000 students 
every year for the last 10 years. People have grown tired of a slow 
moving bureaucracy which cannot meet the needs of its students nor the 
workforce demands of our society. Congress heard these concerns and 
responded with the 2001 No Child Left Behind Act to inject 
accountability into the system and a new focus on achievement. My 
guiding principle in creating that legislation and now overseeing 
implementation is to eliminate failure and replicate success.
    As you well know, the primary purpose of the D.C. subcommittee is 
to ensure the immediate and long term economic health of the District. 
There are many ways we can do that. We can continue our work to correct 
what GAO has identified as a structural imbalance between the cost of 
providing city services and their ability to take in revenue. But at 
the same time, we must focus on other tools for bringing greater 
prosperity and long term stability to the District. Cities that have 
good public schools, safe communities and strong families are cities 
that have strong economies. If we focus on providing these elements in 
the District, we will go a long way toward the economic independence 
the city needs and deserves.
    A hallmark of the District is active parents and community leaders 
who have made progress in reforming public education in the city. One 
of the driving forces behind this change has been the charter schools. 
In the District, charter school students now make up 20 percent of the 
public school population, some 16,500 students. When people ask me why 
I support charter schools, I tell them it is because I believe in 
public education. I firmly believe that if we work to modernize the 
system of delivery for public education, allow greater opportunities 
for innovation and hold schools accountable for results, then we can 
provide a high quality public education for every child in America. One 
size does not fit all, and if we give our parents choices, they will 
choose what is best for their child.
    Until now, the focus of the charter school movement has been to 
increase the quantity of charter schools. But if we expect this to be 
more than a movement, we must shift our focus from quantity to quality. 
This must be a public place for reliable, strong educational 
opportunity. As the Washington Post put it, ``The District's experiment 
with charter schools has proved hugely popular with parents, but the 
schools vary widely in quality and have yet to demonstrate that they 
are doing better than the city's regular public schools in raising 
student achievement.''
     I am encouraged by the D.C. Board of Education's proposal, lead by 
President Cafritz, to issue a short moratorium on issuing more 
charters. I think this indicates that they are not going to try and do 
more; they are going to try and do better. I hope that this committee 
will use its resources to help support all public schools, both charter 
and non-charter, to do better by their children.
    I have voiced the goal of connecting traditional public and public 
charter schools as part of one education system with various benefits 
and deficiencies. The aim is to enhance the successes in both types of 
schools and eliminate the failures in all. In essence, I want to get 
rid of the non-sense competition between charters and publics and find 
areas to share resources and ideas to benefit all children. I hope you 
share this goal to view our children's education as the ultimate goal, 
not how or where they receive that excellent education.
    Today I hope we will share our diverse visions for public education 
as well as some of the mechanisms to achieve our goals. Though this 
hearing is not specifically to review the local budget, the city's 
annual budget must be approved by this committee. Until the Congress 
enacts local budget autonomy, as I have strongly supported, the local 
tax fund budget is part of our annual appropriations bill. The Council 
of the District of Columbia has just passed the local funds budget for 
fiscal year 2006. Under this budget DCPS would receive $1.039 billion, 
of which $800.3 million is derived from locally generated tax funds and 
an additional $147 million is for capital improvements, supported by 
local funds debt service, yet provides targets enhancements proposed by 
the Mayor. The Council had to increase certain areas of the budget to 
ensure that enhancements to DCPS are provided equally to public charter 
schools. I commend Councilmember Patterson for this action.
    A false competition has been created between and amongst 
traditional public schools and public charter schools that must be 
overcome. I am encouraged by the leadership on the Council, Ms. 
Patterson, and Dr. Janey in viewing all public schools in the District 
as part of the same system. Indeed, they are held to the same 
achievement standards under local and Federal law, particularly the No 
Child Left Behind Act.
    A great challenge still not fully addressed by either the local 
budget or the $26 million Federal investment of this committee is the 
critical need for school facilities. Acquiring safe, appropriate, and 
modernized facilities continues to be one of the greatest challenges 
for both traditional public schools and public charter schools. Dr. 
Janey has committed to examining facility issues and is using, in part, 
research done by area think-tanks to inform decisions. Foremost, the 
Brookings Institution (Alice Rivlin) and 21st Century School Fund (Mary 
Filardo) issued a report ``DC Public School and Public Charter School 
Capital Budgeting'' in April identified the disparity across the city 
and the inadequacy of current budget means to improve facilities. The 
Brookings report recommends several areas to combine construction with 
other projects, such as libraries and recreation, as well as creative 
financing ideas.
    One such creative idea which has already been carried out and 
proven successful is the public-private partnerships which re-built the 
Oyster School, now a model public elementary school. I hope we can 
discuss ways of replicating what is already working--if there is a 
waiting list we should build another school on the same model. 
Reinvention is necessary to overcome failure, but when a successful 
model is proven with hundreds of parents camping on the sidewalk for a 
chance to send their child to that school we must respond. If we build 
it, they will come, so to speak.
    Another successful model is to co-locate two schools in the same 
building or campus. I commend Dr. Janey for creating the first co-
location policy for public schools and other governmental entities, 
especially charter schools, but also libraries and recreation centers. 
The School Board has approved the policy and I believe have identified 
10 underused schools which they will offer to charters to co-locate in 
the fall 2005. However, the co-location process is not perfect, the 
leases are only offered for one year and there are still too many 
junctures for derailment. Success will still depend upon the 
superintendent stepping in, as Dr. Robert Rice did with the co-location 
of Two Rivers Public Charter School and Eliot Junior High.
    I understand the great difficulties of everyone on this panel to 
create positive, necessary change and at the same time to meet the 
needs of a community. I have gone through this same process in my home 
state with public schools, and most recently with military 
installations. No one wants a part of their community closed, which is 
why I strongly encourage the most independent and transparent process 
to ensure any contraction or closing of schools will be supported 
because it was decided in a democratic manner.
    Another source of appropriate school space is former school 
buildings which have been deemed surplus by the system years ago. There 
were 38 buildings transferred by the Control Board to the Mayor in 
2000, and all of the public policy and community advocacy to this point 
has directed those buildings be offered to charter schools first. This 
has not been done. We must focus our efforts to require the needs of 
the community are met in the most transparent way; I hope the Council 
will take this matter up shortly.
    I appreciate the time all of the witnesses have devoted to 
improving public education for all in the District. Thank you for being 
here today, I look forward to your testimony and our continued 
partnership.

    Senator Landrieu. I apologize, that I had to be at another 
hearing, and came a little bit after the hearing started. But 
let me just begin with just a few comments.
    First, I thank Hine Junior High for hosting us, and for 
Principal Gary Rosenthal. I also want to thank the students for 
being here and for participating. You are the reason we're 
here, and we thank you for being a part of this, this morning. 
I thank our panel and our great educational leaders from the 
District, and all those who have joined us.
    Mr. Chairman, you've been involved in education issues and 
reform for many years, not just with the District, not just 
with Kansas, but for the whole country. And so, you are well 
aware of all of the challenges that our school systems all over 
the country face. Rural areas sometimes are a little bit 
different than urban; suburban, fast-growth areas a little bit 
different than urban areas that are losing population. But, 
nonetheless, we're all committed to make each one of our public 
schools and public systems the very best they can be around the 
country.
    I'm very pleased, Mr. Chairman, to have worked with you so 
closely on so many important issues for our country. Senator 
Brownback and I have worked together across the board, from 
health issues to education issues. And while Senator DeWine was 
a wonderful partner, I think the two of us will make a good 
partnership team for the District subcommittee and the Senate.
    We have made, Mr. Chairman and panelists, as you know, 
public school reform and improvement in the District of 
Columbia a point of interest and focus on our D.C. 
subcommittee. There are many Senators, many House Members, who 
all have worked very closely with us. And I will say that, over 
the last few years, I personally--while we recognize there are 
many challenges and still some terrible failures that are 
evident, we're also making, in some areas, some significant 
progress.
    And I would like to mention, Dr. Janey, to have you here as 
the superintendent, with a well-articulated vision and plan for 
reform, is very encouraging. Ms. Cafritz, thank you for your 
continued leadership. Ms. Patterson, thank you for the way the 
Council, I believe, is stepping up and saying, ``We know the 
school board has responsibilities, but the City Council has 
responsibility to the whole city, and part of growing the city 
is making the school system better.'' And the public charter 
system, for your leadership, Mr. Nida, and all the charter 
advocates, recognizing this is not a competitor, but a 
complement and a help. These are public charters, these are not 
private charters. They are public charter schools funded with 
public dollars, part of the public system. And I think having 
that unity is very important as we move forward.
    Just one word that I hope, in questioning, we can focus on 
some of the improvements, as you mentioned, of options and 
choices that charter schools are providing, public charters for 
parents, and some of the exciting advances that are taking 
place, particularly of a city-built initiative, Senator 
Brownback, of this subcommittee, initiated last year. I hope to 
get into some details of that.
    Also, I want to commend the Mayor for his leadership. Many 
mayors, including my own mayor of the city of New Orleans and 
mayors throughout Louisiana, are stepping up, working closely 
with their school boards, closely with their city councils, 
urging reforms, because no city can be great without a great 
school system, and we want a school system here that is 
dynamic, entrepreneurial, very customer-driven, very focused on 
outcomes, not inputs, very focused on not how much money we're 
spending, but, as the Senator said, how much are we getting for 
every dollar that we're spending, and trying to do a better 
job.
    And, finally, the issue of leadership and governance is 
extremely important, and I would like to try to make some 
progress this year on that.
    But, in addition to that, the issue of facilities 
management comes up in the traditional public schools, Dr. 
Janey, as well as what the emerging charter school movement 
needs. So, I'm going to have a lot of questions about what are 
we doing with this excess space and how we could allocate that 
best to the students that need help.
    So, again, I'm prepared to submit the rest of my statement 
for the record. We have made some good progress, Mr. Chairman, 
on some of these issues, but like all urban school systems in 
this Nation, there are still some struggles and challenges 
ahead, and we look forward to working with you and with the 
panelists to address them.
    Senator Brownback. Thank you, Senator Landrieu. Your full 
statement will be in the record.
    I will note, from my perspective, this is the top priority 
for the D.C. subcommittee, is the schools issue. As I surveyed 
the numbers, as you look at objective measures of what's taking 
place in the District of Columbia, there's been a lot of 
progress in a number of areas. It's wonderful to see. But this 
one has not seen the progress we need to see taking place. So, 
I want to spend a lot of time working on this topic.
    Let's run the time clock at 5 minutes. We'll bounce back 
and forth with some questions here, and we'll do this on a 5-
minute basis, so I'm going to ask the witnesses if you could be 
as sharp on your answer as possible so we can get through as 
many questions--and we will go through a couple of rounds 
maybe.
    Dr. Janey, thanks for taking this position, for doing this 
work. I understand you've been at it since August of last year. 
And so, you've probably got some ideas and probably haven't 
been able to implement all of them yet, knowing the way 
government systems work. I don't know of a more important 
position in the District of Columbia than the position you're 
in right now, superintendent of schools. I think that is just a 
critically important position for the future of the District of 
Columbia. So, hats off and godspeed to you, and I will include 
you in my prayers tonight, on top of that.
    But, as I look at these numbers--and you just take me 
through what's going on here with the numbers. You've had a 
chance to look at them and study them for a period of time. 
According to the National Center for Education Statistics, D.C. 
Public Schools spend about 49.6 percent of its funding directly 
educating kids in the classroom, but then that means basically 
50 percent is not going for direct education in the classroom. 
I recognize there was some question about treating the District 
of Columbia--comparing it to other states, as Ms. Cafritz said, 
but I'm sure you can't be pleased with that number, that you're 
only getting half of your dollars into the classroom. How are 
you going to get more of those dollars into the classroom?
    Dr. Janey. Let me first say that there are expenses that we 
have that are directly tied to classrooms, they go right to 
classrooms in our budget. Then there are expenses that we have 
that support the work that goes on in the classrooms. What 
separates Washington, DC, from other urban districts, with 
respect to the expenditure question, it has to do, frankly, 
with the number of students that we have and provide service to 
outside of the District of Columbia that are being serviced by 
private organizations that we pay tuition for, which averages 
about $40,000 to $45,000 per student, and the transportation 
for some of those students averages about $18,000 per student 
per year. So, what separates Washington, DC, from other urban 
districts? It is not the percentage of kids in special 
education. We're about the same as Boston, Cleveland, and some 
other districts. It's the number of students for whom we pay 
tuition, that are in private placements, and the transportation 
costs associated with those students.
    Senator Brownback. Is that tuition for special education?
    Dr. Janey. Yes, sir.
    Senator Brownback. Is it exclusively for special education?
    Dr. Janey. Correct.
    Senator Brownback. Is there a facilities issue involved 
here, too, that you've got a number of facilities that you're 
maintaining that you would look at and say, ``Well, given what 
our concentration of students are now, we really need to 
consolidate or move some of these facilities to different 
places?'' Is that part of it, too?
    Dr. Janey. Facilities is a problem; the solution--it is a 
part of the equation of success. And we have put in new seats 
for students to come back and be serviced by the District of 
Columbia's professional staff. Students who may have a learning 
disability, students who may have been characterized by an IEP, 
in need of support because there are some emotional issues or 
other kinds of disabilities. We have put, this past year, 600 
new seats. We have filled 75 percent of them, so we have seen a 
leveling off of the number of students going outside the 
District for whom we pay private tuition. However, we have 
seats that are more here and there.
    What we would like to do, Senator, is, we would like to 
build an articulation--a stream of opportunities by grade 
level. So, Prospect Learning Center, which goes through the 
eighth grade, we will have some continuity by having another 
facility, being able to provide students who are still in need 
of service after eighth grade. So, we have pre-K through 12.
    Senator Brownback. I want to talk with you specifically, 
later, about whether there are things we should be changing 
about special education for the District of Columbia because of 
the nature of your numbers and expenses. I'm going to get you 
started on this question and then I'll switch over here. You 
look at the numbers on performance for reading and math, just 
basic performance, and you noted in your testimony this is just 
not acceptable. What is at the root? Why do we have that 
disparity here? And what are the specifics in your plan to 
change it by 2008?
    Dr. Janey. There's not one single factor that we can say 
accounts for the greatest part of the problem. There are 
multiple factors--the fact that we've had turnover in the 
superintendents, and the fact that we've had turnover in our 
principals, we continue to have big churn in the teacher 
population.
    I would point to, however, one of the things about which we 
can do something is to address the issue earlier than when kids 
come to us in public school. If we can expand--and we have a 
plan to expand the number of seats available for 4 year olds, 
and we have a collaborative effort with the city to identify 
ways by which we can provide support to the parents and the 
early young students, prior to being 4 years old, so when they 
come to us, as 5 year olds, they have the requisite learning 
skills, they have the requisite disposition to take on the 
challenges.
    I would say some of the biggest bangs for the buck with 
respect to return on investment--I would say, first, we need to 
increase the level of quality in our teaching staff and our 
principals staff across the District. Now, we're going to have 
a lot of turnover, but that should not act as any kind of 
excuse for the raising of the bar for quality and continuing 
that for our future. I would say that would be at the heart of 
all of the issues. It was not one issue, but maintaining a very 
high quality. And that is why in this plan we have proposed to 
have 100 teachers per year for the next 5 years to be 
nationally board certified.
    There was a plan some years ago, which was not completed, 
to have the same opportunity for principals. If we could get 
some seed money to be the first in the country to have a 
national board certified program for principals, it would be 
more than the language of cutting-edge, it would make a deep, I 
think, lasting difference.
    Senator Brownback. Senator Landrieu.
    Senator Landrieu. Thank you.
    Just a comment about the chart. And while I don't disagree 
that those would be the differentials based on those averages, 
it might be a more fair average to consider the District 
relative to other major cities in the United States. I mean, 
the District is not a State. Technically, it's somewhere 
between a State and a city. But for the comparisons of urban 
schools, I've found it very helpful.
    Now, having said that, I've looked at those comparisons, 
and our results are still not as good--I say ``our,'' the 
District of Columbia--as I think they could be and should be. 
But it might give us a little fairer comparison.
    I'm going to ask the staff if they could, if they have a 
chart, maybe put it up; and, if not, prepare it for our next 
meeting. But these are my three questions.
    Number one, to Dr. Janey. We have 16 million square feet of 
space in 156 buildings in the District. According to the 
information our staff has gathered, there's 5 million square 
feet of DCPS space that is in excess, meaning empty classrooms, 
empty buildings. As we heard from the testimony of just charter 
schools, and this was just one aspect of this frustration, 
there are 15 charter schools who are leasing space in private 
real estate markets at extremely high prices. Every dollar that 
is paid to rent space is one dollar that comes out of 
textbooks, computers, teacher instruction, academic ability. 
The average age of facilities is 63 years. Seven are rated 
poor, 60 schools are rated fair, 16 are rated in good 
condition. I think these are charter schools, public charter 
schools.
    So, let me ask you. I know this is an issue you focused on 
as superintendent. Are we making progress in identifying what 
space is surplus to either maximize its use to some other 
agency and get some revenue that could be generated back to the 
schools, or are we allowing at least these charter schools a 
more aggressive co-location opportunity so that we're not 
spending money giving it to landlords, and we're spending money 
educating children? Dr. Janey, could you address that?
    Dr. Janey. Yes. Let me start. We are doing both. We, 
through the Board of Education, proposed an opportunity for 10 
buildings for co-location, which would include the opportunity 
for child support.
    Senator Landrieu. Could you list those 10 this morning? Do 
you have those 10----
    Dr. Janey. I'm sure my staff has them. We could pass them 
on to you.
    I could say that, just for the charter school example, 
we're in conversation with the Kipp Academy. And the principal 
of Kipp Academy shared with me--it's probably no secret to 
members of this panel--that in their lease it's costing $40,000 
a month for them to maintain their educational program. We 
think--we want to engage in some of the very finest 
opportunities whereby it will be a win-win, not just on the 
financial issue, but on the education side, because we're 
talking about having a pre-K through eight Kipp model. Kipp, as 
you know, anchors its work in the middle grades area. So that's 
a real, live possibility.
    And I will close by saying that we are preparing a new 
master facilities plan to come out of an education strategic 
plan we're going to put forward in December. And the master 
facilities plan would come after that.
    Senator Landrieu. Let me just say----
    Ms. Cafritz. You mentioned the Maya Angelou achievements. 
Okay? We have a partnership with them, and they're in a public 
school building, so we have about 15, in addition to the 10, 
that are coming online in September. We have about 15 other 
charter school programs in public school facilities now.
    Senator Landrieu. I want to just--as you know, on this 
charter--or this facilities issue, our subcommittee last year, 
Senator Brownback, after several years of trying to push this 
issue in ways--working with the Council and with the school 
board, just decided--we have 5 million extra square feet of 
space, and aren't really getting anywhere. So, in our bill, we 
had to push a little bit, which we hate to do unless we 
actually have to, to say, ``Please make this surplus space 
available first to established charter schools, and then for 
other educational opportunities.'' So we'd really like to see 
some progress this year on that issue.
    Ms. Cafritz. I think the progress that has been made has 
been minimized, to some extent. We finally have--this is not 
something the school board can do alone. As soon as the 
superintendent brought forward--this superintendent brought 
forward the recommendations within months of his arrival, the 
school board voted to approve it. But, even prior to that--the 
summer prior to that, we housed, you know, two other schools. 
And, you know, I think that that's important.
    But another thing, too, about the 5 million in excess 
space. Let's take a school like Ellington--the Duke Ellington 
School of the Arts, which I counted, so I know very well. On 
the list that he has, it says that Ellington is unoccupied by a 
certain number--a lot of square feet. Ellington is bursting at 
the seams. You couldn't get a worm in it. So, you know, that is 
something we have to work on.
    Another thing is that some of the schools are so 
dilapidated that they need to be renovated before occupancy, 
and we cannot put charter school kids in a renovated part of 
the building and public school kids in an unrenovated part. 
That's a recipe for disaster. For that to happen, it has to be 
funded.
    Senator Landrieu. I realize that, but I also want to just 
go on the record as saying that the law is that when surplus 
properties become available, they have to be given to charter 
schools. There is a demonstrated desperate need for these 
public charter schools to be given space. And the great 
opportunity----
    Ms. Cafritz. But the Mayor controls those, not us.
    Senator Landrieu [continuing]. The great opportunity is, 
charter schools have some flexibility to do these renovations 
that may be able to benefit all of the children in the 
building, those that are in the traditional public school and 
the charter.
    So, I'm going to leave it there--my time is up--and come 
back to just one other question, if I could, and it's to 
Superintendent Janey.
    Superintendent, you've been here now--you visited with me, 
and I'm very pleased about some of these plans and objectives 
for the system, but what management tools have you asked for 
from the board that you have been given, some new tools of 
management? Which things have you asked for that you haven't 
been given that you think would help you to actually run a very 
tight, efficient, and quick reform plan? This is something that 
every year we don't get done correctly--or every 2 years, or 3 
years--these are students that are really caught up in a system 
that may not be functioning at its best. So there is some 
urgency here. Is there something you could share with us that 
you've asked of the board that they've given you, and some 
things you might still think about in the future?
    Dr. Janey. That's an interesting question. I don't think I 
came here to get management tools from the board, per se, but I 
did come here to work with the board to seek policies and seek 
approvals, I think, that would help accelerate what we're 
doing, in terms of school reform.
    To your first part of the question, I found the board very 
much engaged on the issue of adopting new learning standards. 
They were right with me in step as fast as I was going. There 
wasn't anyone, I thought, on the board, or the board as a body, 
out of step. These new learning standards are going to be for 
all of the public schools, as you know, in the District of 
Columbia. I suspect that will be the same kind of review and 
reception on the part of the board, where we've proposed a new 
assessment system.
    I must remind the public that, while we talk and perhaps 
take into consideration the fact that we have some schools that 
have made AYP, it has been with a very low cutoff. It's 41 
percent. So when that bar is raised next year, in the spring of 
2006, one should understand that what we have been in 
celebration of over the years may have overstated, really, the 
celebration that has caused a lot of folks to be in praise of 
progress.
    So, I haven't gone expecting management tools. We will be 
proposing, however, through various contracts, instructional 
learning management systems. And so, it is in that context that 
I'm asking the board for their understanding and support, not 
necessarily a tool, but we want to have a learning system, or a 
set of learning standards and assessment system, big items, 
that will affect the quality of our education, a new contract 
for our employees. Those are the, I guess, kinds of tools you 
may have been alluding to that I would seek from the Board of 
Education.
    Senator Brownback. Thanks. If I could have one final 
question.
    Mr. Nida, I noted the explosive growth in the charter 
schools. You're up to 16,000 students from every ward in the 
city. It's 21 percent of the total public school population. 
Where is this going? Do you have any projections, or are you 
capping out at this point in time, noting eight more new ones 
to open this fall?
    Mr. Nida. I don't think we have any formal cap. What we see 
is that the growth represents more individuals with qualified 
backgrounds and experience stepping forward to introduce new 
programs, new curriculum, to provide additional choice. In 
looking at the 19 applications we got this year, there were no 
two remotely close. There are a variety of programs, a variety 
of grade levels, a variety of locations. So, I think it is just 
a reflection of the fact that the organizers of these schools, 
the parents who support them, are looking for even wider choice 
to meet the individual needs of the students involved. Clearly, 
it shows that there was an interest in having an option, 
besides the one-size-fits-all, where students can have an 
environment, a program, a location, that really meets their 
individual needs.
    Senator Brownback. Do you provide vocational training?
    Mr. Nida. Yes. There are some schools providing vocational 
training. They are not the majority of schools, at this point. 
A number of those that deal with at-risk students at the high 
school level have vocational programs in conjunction with the 
academic programs. We have one--for instance, the Marriott 
Hospitality Charter High School, that is preparing kids for the 
hospitality industry in the District, which is the District's 
largest industry.
    Senator Brownback. The reason I ask that is that I was a 
product of vocational training, growing up at a rural high 
school, and I know a lot of people look down on vocational 
training, but I look at it as something that was very 
stimulating and actually encouraged me, in the rest of my 
classes and learning, to then go on to college and law school. 
And I just think those are very helpful, particularly in 
keeping young people interested and coming along. It is not for 
everybody, but, for a number of people, it can be the very 
thing that actually keeps them moving forward.
    Mr. Nida. One of the schools that's going to open this fall 
is engaged actively with members of the building trades and 
unions to get high schoolers involved in various aspects of the 
building trades. Try to find a plumber or an electrician in the 
city right now, and you realize what--the kind of incomes 
they're making. Sometimes this is not a decision that is in 
the----
    Senator Brownback. And compared to the number of lawyers in 
the city.
    Thank you very much.
    Senator Landrieu, do you have any other questions of the 
panel?
    Senator Landrieu. Yes.
    Again, just back to the public charter schools for just a 
minute. And maybe we have surveys across the whole system, but 
do we have any data about parental satisfaction, teacher 
turnover rates, charters, noncharters, that might be helpful to 
us? And while we want to focus on the quality, not quantity, of 
public charters, what would the charter boards need that they 
don't have, budgetwise, to really step up the excellence and 
accountability? We want all of our schools to be excellent. And 
while I'm very proud and supportive of the growth of public 
charters, I do want to acknowledge that it is not quantity, but 
quality of education that we want everywhere. So, is there 
something that this subcommittee could do to help in that 
regard, or perhaps the council could be----
    Mr. Nida. Well, let me come back to the first part of the 
question, as to parental and student satisfaction. And I would 
add to that maybe teacher and staff satisfaction, because 
that's a part of this, too. The schools typically provide their 
own surveys that are conducted typically on an independent 
basis, and the results of those surveys are reported to us 
through the individual schools' annual reports so that 
information can be gathered from our annual report of all the 
schools. And we could certainly make that available to the 
staff.
    I believe we also track teacher turnover, too. We look at 
the fact that, with the charter school movement being young and 
growing, there's a certain amount of turnover that comes with 
success, because the best teachers sometimes get wooed to 
another school.
    We see that, obviously, we are looking at a mixture of 
teaching staffs that have both the new graduates, those that 
are coming in as teachers as a second career, and the highly 
seasoned teachers. So, when we look at things like teacher 
turnover, we like to dig a little deeper than just a flat 
turnover rate, but figure out the nature of the turnover, and 
the source of it, in terms of the types of teachers that are 
turning.
    As to the issue of looking at success and what could be 
done here, one of the frustrations we've had at the board level 
is, we have funding that comes from two sources. There's the 
appropriation, which makes up a significant part of our 
operating budget, but the lion's share of it for the programs 
we administer and some of the support we provide comes from 
administrative fees that come from the schools themselves as 
payment for some of the services we provide them. However, we 
have taken on the task of providing oversight and 
administration for part of the No Child Left Behind. And I'm 
not aware we've gotten all the funding that has been promised 
for that. So, if we could just get that which was committed to 
already in that particular arena, that would be helpful.
    Senator Landrieu. And how much is that? And who is it 
coming from? Is it coming from us or from the school board or 
the Council or the city?
    Mr. Nida. I believe it is coming from Federal sources.
    Senator Landrieu. Do you know how much it is?
    Mr. Nida. No, ma'am, but we can get that information.
    Voice. $1.7 million.
    Senator Landrieu. That you are expecting for 
administration? One of the things I would like to do is try to 
meet your request of having better accountability for charter 
schools so that we are improving the quality of the charter 
schools, because we hope that under the new Federal law, which 
operates now everywhere in the country, if a public school is 
meeting its objectives and its results, it will stay open and 
functioning; if it doesn't, it will be closed and changed. 
That's the Federal law, that is happening all over the country, 
that is happening everywhere, in the District of Columbia, in 
Kansas, and New Orleans.
    The days of the Federal Government sending money to public 
schools and just having the same-old/same-old are over with. It 
ended with No Child Left Behind. And it's just a matter of 
every school district in the country being somewhere along the 
continuum. In New Orleans, since we started ahead of everyone 
else, we're about ready to close or transform 22 schools that 
have failed to meet their annual yearly average for the last 4 
years. Next year, there may be another 26 schools. That's 
happening in every city all over America. And so, we want to 
make sure that these schools have an opportunity to come under 
new management and be reconstituted, and these children have an 
opportunity, and we would like to see as few charter schools 
fail as possible. We would like to see as few public schools, 
traditional public--charter public and traditional public fail, 
as few as possible. But, when they do, we want to be there to 
pick them up, reorganize them under new management, give them a 
new chance to make the grade.
    Dr. Janey. I would just like to enter into the record some 
of the rest of the story around good schools. They reside 
partly within the charter school community, and they reside 
partly within the public school community. We have a number of 
schools for which there's a waiting list, as you probably know. 
And all of them do not occupy space in the northwest section of 
the District of Columbia. We have high schools that have 
waiting lists, and they're not just some of the names that pop 
up quickly--the School Without Walls and Wilson. McKinley has a 
waiting list. McKinley has a waiting list and is bringing kids 
from Maryland and Virginia for next year's ninth grade class. 
We have tuition reimbursement from individuals who are going to 
pay tuition for the new McKinley Tech.
    I say that because I think the record should be heard and 
be read in a way that I, as superintendent, make sure that it 
is understood that we're not something to take for granted as a 
school district, as many of the problems that we have, and 
challenges that we have in the past. We have some very fine 
schools, and it's our job to make sure that it is pre-K through 
12 throughout the system.
    Senator Landrieu. Could our subcommittee have a list of the 
traditional public schools that have waiting lists to get in? 
And we would like, particularly, to note that I think Oyster is 
one of those schools that has a waiting list of 300 plus. Ms. 
Patterson, do you want to just go on the record for anything 
you might know about that or the private/public partnerships?
    Ms. Patterson. Just to confirm that it's correct, there is 
always a waiting list for Oyster.
    Senator Brownback. Ms. Patterson, from the D.C. City 
Council--you talk about facilities--do you have a facilities 
plan you are working on? You talked about the need for improved 
facilities. Are you working through that now?
    Ms. Patterson. The school system has developed a facilities 
master plan they'll be updating, following the superintendent 
completing the master education plan. What the Council is 
working on this year is an initiative that Chairman Cropp 
initiated, which was a new--apparently modest new revenue fund 
to try to promote a couple of specific things--co-locations, 
increased special education capacity, and public-public and 
public-private partnerships. That's an additional revenue fund.
    Senator Brownback. That's just something you look forward 
to working with people on as part of this overall equation of 
how we address the issue here in the D.C. Public Schools.
    I look forward to working with all of you. I hope--I know 
this is my first outing here on education in this transition 
from the authorizing to the appropriating side. I've traveled 
and toured some of the public schools previously, toured 
charter schools previously. I look forward to doing some of 
that in the future, as well. I hope we can all work together, 
and nobody get in a defensive crouch about, ``Okay, what are 
you doing?''--but, rather, we say, ``The objective here is to 
provide a higher basis of education for the children,'' and 
that these numbers change, and they go north, not south, and 
they go there rapidly. Because these kids don't have that much 
time that they're in school, and every year that we don't serve 
them well with the best that we can do, and get the numbers up 
in education and reading and math, in particular, is a year we 
have made them less productive. And we probably really hurt 
them for life. It's one of the things that you just don't have 
a whole lot of time to spare. And these are the sort of numbers 
I saw in 1997, when I was working as the authorizer. So, to see 
them again now, in 2005, I just say, ``Wait a minute. What's 
happened to the kids since that time?'' So, I'm going to be 
pressing very aggressively on this. And the bottom line is to 
get those numbers up, because they each represent a child that 
is not being educated the way they need to be educated.
    Ms. Patterson. Can you indulge me to give an answer to the 
first question you asked of the superintendent on that point of 
how to get those numbers up? I'm not an educator, but I can 
read, and I can read research, and when you look at the 
research on what high-performing urban districts are doing, the 
ones that are succeeding in getting those numbers up--and you 
go back in time and see what was step one--step one for those 
districts--whether it's Charlotte, North Carolina, or 
Sacramento, step number one is strong comprehensive educational 
standards, curriculum aligned to the standards, assessments 
aligned to the curriculum. And that is the first step on the 
part of the new leadership of D.C. Public Schools, which makes 
me have some level of comfort that we are on the right track. 
Because if that is what the research shows should be your first 
step, and we are taking that first step, to the point where one 
of Dr. Janey's assistant superintendent's said, ``We're going 
to be doing in 7 months what Massachusetts did in 7 years,'' 
that gives me some sense that I think we're on the right track 
this time around. And I just wanted to say that.
    Senator Brownback. Well, we're going to be pushing from 
this side on it, as well.
    I thank you all very much, and I wish you all the best as 
we work together on these issues.
    We'll call up our second panel: Ms. Juanita Wade, director 
of D.C. Education Compact; Ms. Ariana Quinones, executive 
director, D.C. Charter School Association; Ms. Doris Olaseha, 
parent of three D.C. Public School public education students. 
We invite you to come forward to present on this panel.
    Thank you very much, ladies, for being here. I would like 
for you to stay within the 5-minute time deadline so we can 
make sure to get through the testimony. Your written statement 
will be completely put in the record. I, personally, appreciate 
summaries and speaking from the heart, myself. But you can all 
do what you would like.
    Ms. Wade.

STATEMENT OF JUANITA WADE, DIRECTOR, D.C. EDUCATION 
            COMPACT
    Ms. Wade. Chairman Brownback, Senator Landrieu, Principal 
Rosenthal, if he's still here, thank you for the opportunity to 
present testimony to you this afternoon.
    Senator Brownback. Hold on a second, if you could. People 
in the crowd, if you could take your conversations outside, 
we'd sure appreciate that. The acoustics are not that good 
here.
    Ms. Wade. Thank you.
    My name is Juanita Brooks Wade. I'm director of the D.C. 
Education Compact. It's a broad-based collaborative of 
education stakeholders representing public officials, parents, 
teachers, principals, foundations, businesses, higher 
education, community-based agencies, and students from across 
the District.
    In the early part of 2004, a small group of education 
stakeholders came together. Their interest was in developing a 
consensus agenda for the D.C. Public Schools. They saw that a 
consensus agenda could create a safe space for dialogue about 
the critical issues facing the DCPS and its students, 
articulate the elements of a reform agenda around which there 
is broad agreement with the D.C. community, and build a culture 
of collaboration. With this vision in mind, that small group 
created the D.C. Education Compact.
    I want to acknowledge the participation of the Fannie May 
Foundation, the Kimsey Foundation, and the National--the 
Community Foundation for the National Capital Region, in 
particular. Their resources helped make the DCEC process 
happen.
    At the founders retreat in November, participants affirmed 
the ideal of individual and collective responsibility to make a 
promise to each other to put aside their parochial, their 
individual, and their political differences to make sure that 
they were working together. They wanted to keep their eyes on 
the prize. We wanted to keep laser-focused on the goals of 
improving the D.C. Public Schools and enhancing student 
achievement.
    The Compact founders recognized early on that sustaining 
the student improvement is only possible when the school 
district and the whole community work in concert with each 
other and in partnership. The personal, social, and economic 
implications of our shared responsibility are enormous. To 
date, more than 1,500 education stakeholders have participated 
in the D.C. education process.
    Working together since November, the Compact has made 
significant progress. In the interest of time, I won't 
articulate them all, but one of the things we did that we're 
most proud of us is the partnership with the DCPS. Hundreds of 
dedicated volunteers worked to help craft the DCPS strategic 
plan that focuses attention on three critical areas: teaching 
and learning, national systems, and communications. Improvement 
in these three areas is fundamental to reform in our schools. 
The strategic plan has as its core values the culture of 
learning, valuing the abilities of all children, a culture of 
excellence ensuring effectiveness and efficiency, and a culture 
of open engagement promoting open and engaging policies and 
practices.
    The problems in the D.C. Public Schools didn't come about 
overnight, and they certainly won't disappear overnight. The 
reality is that the problems have been in place for a very long 
time. No one superintendent, no one mayor will turn this system 
around. Real system reform requires the complete and undivided 
attention of a broad cross-section of stakeholders to guide, 
shape, and support the reform process. They need the DCPS to 
clearly be part of the education master plan. They need 
government to provide consistent funding and ensure that 
policies and regulations are adjusted to support that reform 
process. They need business to show models of excellence, 
particularly in the area of procurement, human resources, 
facilities management. They need foundations to help provide 
funding to fill the gaps around human services and education 
and innovation and change. And they particularly need higher 
education to provide support and training for teachers and 
educational leaders. I think most of all they need to support 
and create an open environment for parents.
    The DCEC has, and will continue to play, a role through the 
implementation process, the critical role of building consensus 
and public will around support for public education in the 
District, creating, again, a safe space for stakeholders to 
participate in dialogue, convening the sectors around their 
commitments. And many of the business and foundation sectors 
have made significant commitments to working with Dr. Janey in 
coordinating the partnership with DCPS, holding all of the 
parties accountable.
    Dialogue must be followed by action. We're committed to 
help bring change to public schools. We invite every parent, 
family member, community provider, business person, and youth 
to sign onto the compact. And if you go to our website, 
www.dcec.org, you can sign on and find a way to volunteer. 
We're committed to working with Dr. Janey and his leadership in 
the broad community to bring about change in the DCPS.
    Thank you.
    Senator Brownback. Thank you very much. You're a very 
impressive lady and that was an impressive presentation. Thank 
you.
    [The statement follows:]

               Prepared Statement of Juanita Brooks Wade

    Thank you for the opportunity to present testimony to you this 
afternoon. My name is Juanita Brooks Wade; I am the Director of the 
D.C. Education Compact (commonly called the DCEC or the Compact). The 
D.C. Education Compact is a broad based collaborative of education 
stakeholders representing public officials, parents, teachers, 
principals, foundations, businesses, higher education, community-based 
agencies and students from across the District.
    In the early part of 2004, a small group of education stakeholders 
came together. Their interest was in developing a ``consensus agenda'' 
for the D.C. Public Schools. They saw that a consensus agenda could 
create a safe space for dialogue about the critical issues facing the 
DCPS and its students, articulate the elements of a reform agenda 
around which there is broad agreement with the D.C. community, and 
build a culture of collaboration. With this vision in mind, that small 
group of committed individuals began the process to create the District 
of Columbia Education Compact. I want to acknowledge the participation 
of the Fannie Mae Foundation, the Kimsey Foundation and The Community 
Foundation for the National Capital Region, in particular. The 
resources that they have made available to DCEC have been invaluable to 
this process.
    Formed in the fall of 2004, the DCEC has as its core mission a 
commitment to ensure that our schools provide excellent student 
achievement for all of our children in the District of Columbia. The 
DCEC is dedicated and committed to this mission above and beyond any 
individual, parochial and political interests. The DCEC is committed to 
developing and implementing short and long-term action plans to 
accomplish this mission.
    At the founding retreat in November, participants affirmed the 
ideal of individual and collective responsibility; and made a promise 
to each other that we would refuse to be divided by parochial or 
partisan concerns. We would keep our eyes on the prize. We would keep a 
laser-like focus on the goals of improving our schools and enhancing 
student achievement.
    The Compact founders recognized early on that sustained school 
improvement is only possible when the school district and whole 
community work in concert with each other and in partnership. The 
personal, social, and economic implications of our shared 
responsibility are enormous. Top date more than 1,500 education 
stakeholders have participated in the DCEC process.
    Working together since November the Compact has made significant 
progress--our achievements include:
  --A culture and structure of ongoing collaboration between DCPS and 
        all education stakeholders in the District.
  --Thousands of human hours of work by volunteers representing 
        stakeholder sectors across the district.
  --A shared framework adopted by all participants for use in analysis, 
        synthesis, reform proposals, and benchmarks for future 
        accountability.
  --A comprehensive reform agenda around which there is broad agreement 
        within the D.C. community.
  --A fresh sense of enthusiasm, trust, discipline, and accountability 
        among all participants.
  --A long-term commitment to work into and beyond the implementation 
        of current reform proposals.
    And finally, in partnership with DCPS hundreds of dedicated 
volunteers worked to help craft the DCPS strategic plan that focuses 
its attention on three critical areas: teaching and learning; 
management systems; and communications. Improvement in these three 
areas is fundamental to reform in the DCPS. The DCPS strategic plan has 
as its core values a culture of learning--valuing the abilities of all 
children; a culture of excellence--ensuring effectiveness and 
efficiency; and a culture of open engagement--promoting open and 
engaging policies and practices.
    Our children and their academic achievement--for every public 
school student, in every classroom, in every school--live at the heart 
of our efforts. Around their promise and potential, we focus on our 
schools, on safety and security for those schools, on the support 
systems that make schools work effectively and allow learning and 
teaching to take place, and finally on the broader community. As a 
city, we must bring a shared sense of impatience and urgency to our 
commitment to work with DCPS to achieve the academic excellence our 
children deserve.
    You may ask: Why now? What's different? and Is this hope for a 
bright future real? The answers to those questions must be 
unequivocally clear.
    The problems within D.C.'s public education system did not appear 
over night. They represent the outcome of years of poor and 
inconsistent leadership, they represent the outcomes from years of 
mismanagement and disinvestment, and they represent the disregard for 
human capital. The reality is that these problems will also not 
disappear overnight. The reality is that no one superintendent, school 
board or mayor will turn this system around. Real system reform 
requires the complete and undivided attention of a broad cross section 
of stakeholders to help guide, shape and support the reform process. 
The reform process requires:
    DCPS: to provide the master vision for public education in the 
District of Columbia; to provide strong leadership and clear direction 
for school reform; to provide open communication with all stakeholders; 
and clear accountability.
    Government: to provide consistent and appropriate funding; to 
ensure that policies and regulations are adjusted to meet the needs of 
the reform process; and finally to provide a sense of patience and 
support during the change process.
    Business: to provide models of excellence, particularly, in the 
areas of management and operations (IT, procurement, human resources, 
facilities, etc.); to provide much needed human and material resources; 
and to opportunities for exposure and internships for their future 
workforce.
    Parents/Residents: to seeking training and support to become fully 
engaged in supporting their child(dren)'s education; to become a 
consistent and active voice for quality education for all of the 
District's children; and become a local partner in school-site 
improvement.
    Foundations: to provide gap funding in the areas of education and 
human service innovation and change; to help their colleagues push the 
agenda and dialogue around school reform; and provide resources and 
support to the local social/community infrastructure of community based 
agencies that work closely with schools supporting students and their 
families.
    Higher Education: to help define and provide support and training 
for teachers and educational leaders; to provide opportunities for 
school-age students (of all ages) to be exposed to post-secondary 
campuses/programs; and help frame the long-term discussion around 
school reform.
    Teachers, Principals and School Personnel: to provide open and 
welcoming school environments for parents and local residents; set-
aside parochial labor debates and engage in discourse that puts student 
achievement first; support a strong culture of learning for all.
    Students: to take individual and collective responsibility for your 
own education; seek out opportunities to advance your learning; and use 
your learning to give back to your community.
    Community-Based Organizations: to provide support to students and 
their families to help eradicate the barriers (health issues, housing 
issues, employment issues, etc.) to full engagement in the D.C. public 
schools; strengthen your internal capacity to define clear standards 
for operation; and help organize parents and residents around community 
dialogue about education.
    The sectors have all made significant commitments to the DCPS 
reform effort. You can read the particulars of their commitments and 
the full text of the D.C. Education Compact reports (volume I and II) 
online at www.dcec.org. These commitments, while made in earnest, will 
only be realized through the long-term concerted efforts of the D.C. 
Education Compact.
    The DCEC has and will continue to play, through the implementation 
process, the critical role of building consensus and public will around 
support for public education in the District of Columbia; creating a 
safe space for stakeholders to participate in dialogue; convening the 
sectors around their commitment; coordinating the partnership with 
DCPS; and holding all parties accountable to this effort.
    There are no quick fixes and the work is not easy. The DCEC's 
primary role remains our ability to bring a comprehensive range of 
stakeholders to the table, providing constructive insight, criticism, 
support and resources.
    In close partnership with DCPS and District officials, we pledge to 
continue to engage the broad community in dialogue about internal needs 
and action on potential solutions for our schools. We will continuously 
listen, educate, and inform the public in order to build consensus 
around a common agenda that is responsive, responsible, and 
sustainable. Conditions will continue to evolve, but DCEC will maintain 
an ongoing, constructive dialogue among the District, the 
Superintendent, the school board, the community, and the Compact. DCEC 
will promote the communication of good news about the school system, 
while supporting the Superintendent and Board of Education in building 
and maintaining momentum for our common goals and initiatives.
    Over the next few months, Dr. Janey and his DCPS leadership team 
will be working with the DCEC to outline his implementation strategies 
around professional development for teachers and principals, training 
and support for parents around the learning standards, the expansion of 
parent resources centers in the district, open communication with 
parents and residents, and many others. The DCEC will remain a constant 
in that process.
    Dialogue must be followed by action. We are committed to help bring 
change to our public schools. We invite every parent, family member, 
community neighbor, service provider, business person, youth, funder 
and public official to take action with us. Sign on to the D.C. 
Education Compact. Invite your colleagues to join you in a commitment 
of their time, talent and resources. Sign on at www.dcec.org or by 
calling 202-274-8139. Let us know what you think, what you believe, and 
most importantly, what you are willing to commit to bring to our 
children's future.
    Thank you.

    Senator Brownback. Ms. Quinones.

STATEMENT OF ARIANA QUINONES, EXECUTIVE DIRECTOR, D.C. 
            CHARTER SCHOOL ASSOCIATION
    Ms. Quinones. Good afternoon, Chairman Brownback, Senator 
Landrieu, and staff. Thank you for the opportunity to speak to 
you today.
    My name is Ariana Quinones, and I'm executive director of 
the District of Columbia Public Charter School Association, and 
we represent all the charter schools here in the District of 
Columbia.
    Senator Brownback. Get that really close to you, if you 
will. The acoustics are bad, or my ears are getting bad. Maybe 
it's both.
    Ms. Quinones. At the association, D.C. charter schools is 
one of three education delivery systems available in the 
District of Columbia, the District schools, the charter schools 
and the nonpublic schools. And I believe that charter schools 
can play a complementary role to DCPS by filling gaps in their 
educational offerings and increasing access to special programs 
by looking at various parts of the city, and doing it in a 
relatively quick manner.
    I'm just going to just read off some highlights from my 
testimony.
    And the first point is recognition of the role of Dr. Janey 
as the chief state school officer. The charter school sector is 
still somewhat a second-class citizen in the District 
educational landscape. The association is working to elevate 
the visibility of the public charter schools as a key provider 
of the educational services to the District's residents and, 
thereby, shift the default setting from DCPS as the educational 
provider to considering all three education sectors. And we're 
working to establish the association as a quasi-central office 
for the charter schools in order to ensure their representation 
to facilitate their participation in educational conversations 
and decisionmaking in the District, and, additionally, to make 
it easier for people like you and individuals who are trying to 
connect to the public charter schools to not have to go 
individually to 42 different charter schools or campuses to 
talk to them. If we recognize that the District has 43 school 
districts now, as well as over 100 nonpublic schools today, 
then the State functions and the role of Dr. Janey as the 
chief, rather than as the superintendent, become more 
important. So, you will hear the charter school representatives 
referring to Dr. Janey not as Superintendent Janey, but as 
Chief Janey.
    The second point is a clarification of the local and State 
education agency functions. With close to 60,000 students now 
in D.C. Public Schools, 16,000 in charters, and 21,000 in the 
nonpublic schools, we now have three very prominent education 
sectors. It's no longer effective or efficient to consolidate 
those local and State functions within one entity, the DCPS, in 
the current manner. One specific example of the challenges 
presented by the lack of a true State education office is 
serviced when we consider student transfers. If a student is 
truant and suspended for more than 25 days, or expelled from a 
charter school, DCPS right now does not have to admit that 
student into its alternative schools, the public-choice 
academies, because the alternative schools are supported by 
local education funds. So, in other words, the charters exist 
as their own school district. In theory, they would have to 
take care of those students within their district. But, as you 
know, most charter schools are a single school; they don't have 
the infrastructure to maintain their own alternative schools. 
So, one possible solution is for the State education agency to 
operate the alternative schools in the DCPS as the local to 
operate it, so any student living in the District, regardless 
of the school that he or she attends, could be admitted to the 
alternative school if that was necessary.
    The bottom line is, it's not good practice to have children 
out on the streets and not in school, so this is something that 
could be facilitated by really working with DCPS as the State, 
rather than the local.
    The association is supportive of efforts within DCPS to 
clarify and separate these functions, first, beginning with the 
revision of the District of Columbia municipal regulations 
known as DCMR5 that govern public schools, and also the 
development of separate organization charts, the subsequent 
elimination of a single individual within DCPS having 
responsibility for both State and local functions, and 
ultimately we would advocate for the actual physical separation 
of the two, resulting in two distinct entities.
    My third point is collaboration with DCPS. As I stated 
earlier, besides the charter school sector, and also providing 
complimentary educational options within the District. The 
charter community is interested and working to support all D.C. 
students and families across the sector. We have lots of work 
at DCPS to find ways to work cross-sector and to work with DCPS 
as the State to promote the educational offerings of the 
District. Some possibilities would include joint activities 
such as an annual showcase of public schools, a production of a 
State directory of all public schools, joint professional 
development, and methods to share best practices, purchasing of 
services by charter schools from the DCPS central office, such 
as textbook purchases or even Medicaid billing, discussions 
around the development of, as I mentioned, State-level truancy 
center or alternative school, also the coordination of data for 
State and Federal reporting, and to facilitate the transfer of 
student records when a student moves from one school to 
another, and involvement in discussions of co-location, 
consolidations, and closings, and locating new programs to 
ensure coordination of the school facility planning across all 
sectors.
    A fourth point, charter school facilities. This continues 
to be a priority area for the charter schools. And with new 
schools opening each year, the demand for appropriate 
facilities and the funds to improve them is not diminishing. 
And at the same time the charter school enrollment is 
increasing, the DCPS enrollment is decreasing, so we see a win-
win opportunity here for charter schools to work with DCPS on 
the co-location issues and moving into surplus facilities, as 
was mentioned earlier.
    Senator Brownback. If you could wrap up, please.
    Ms. Quinones. It's important that D.C. school children are 
in school buildings in appropriate facilities and not in 
makeshift schools like warehouses and churches, where they have 
had access to, or lack of access to, some of the traditional 
kind of standard things we want to see in schools, such as a 
cafeteria, gymnasium, auditorium.
    We also have an interest in discussing the $13 million 
school improvement funds from Congress. And there are four 
large themes that have emerged from our discussions with the 
authorizers and some of the other stakeholders in the District. 
The first is charter school facilities financing. We know 
that's a priority. The second is unmet needs. The per pupil 
funding allocations for very small schools and schools that are 
started that don't have the full capacity makes it difficult to 
deal with the dis-economies of scale of being that size. And 
some of those important things, like a playground, are not 
being able to be met through the funding in those early years. 
And so, some ability to meet those gaps in early startup 
schools.
    Also, quality assurance and school improvement. We know 
that facilities are very important. At the same time, we want 
to make sure the schools we put inside those facilities are 
operating at their highest potential.
    And then, last, the concept of a quasi-central office. As 
the charter school sector expands, it is clear some of those 
backoffice functions are much more cost effective when they are 
done by the schools pooling their resources, rather than having 
to have those administrative costs and activities 
independently. So, this kind of central office could deal with 
issues like a procurement function in a way that would not 
infringe upon the timing of the charter schools.
    So seeing the establishment of some of these functions is 
an important investment that will allow the schools to reduce 
their administrative costs and reprogram their funds back into 
the educational program.
    So, in closing, I just want to emphasize that it's 
important to shift the looking at DCPS from the educational 
provider to be one of three now in the District. Clarifying the 
State and local functions is really a critical part in the 
reform of D.C. Public Schools, and that we are willing to--the 
charter school sector--to work with DCPS--to ensure that all 
students have all their options in the District.
    Thank you.
    Senator Brownback. Thank you very much.
    [The statement follows:]

                 Prepared Statement of Ariana Quinones

    Thank you for the opportunity to speak to you today. My name is 
Ariana Quinones-Miranda and I am the Executive Director of the District 
of Columbia Public Charter School Association (DCPCSA). I am happy to 
make myself and the Association staff available to you for information 
about the public charter schools in the District.
    At the Association, we view public charter schools as one of three 
education delivery systems available in the District of Columbia--
district schools, charter schools, and non-public schools. Although 
competition is often mentioned in conversations about the role of 
charter schools in public education reform, it is not about competition 
for competition's sake. It is about providing quality educational 
options across all three sectors without undermining the strength of 
any one of the sectors. And in fact, in the District of Columbia, I 
would suggest that the charter schools are more of a release valve, 
giving DCPS room to regroup during this period of transition and 
renewal.
    We have an opportunity to support educational options in a 
strategic way by having dialogue with DCPS officials as they work to 
develop the Education ``Master Plan,'' rewrite the District of Columbia 
Municipal Regulations (DCMR 5) for the Board of Education, and 
otherwise work to improve the policy and program infrastructure in the 
District.
    There are five main points I wish to cover today: (1) Recognize the 
role of Dr. Janey as the Chief State School Officer; (2) clarification 
of local and state education agency functions; (3) collaboration 
between public charter schools and DCPS; (4) charter school facilities; 
and (5) allocations of the $13 million.

Recognize the Role of Dr. Janey as the Chief State School Officer
Clarification of Local and State Education Agency Functions
    The current consolidated Local Education Agency (LEA)/State 
Education Agency (SEA) within DCPS was at one time a very practical 
decision that saved the District money because one person or one office 
could carry out both functions.
    We now have three education sectors in Washington, DC (district, 
charter, and non-public schools) and we have a critical mass in each 
sector. It is no longer effective or efficient to consolidate the state 
level functions within DCPS in the current manner.
  --Internally at DCPS there is some confusion about the state level 
        functions. In terms of charter schools, some staff believe that 
        they are to only serve the charter schools that are approved 
        under the Board of Education, if at all.
  --Staff who do understand that they are to serve all schools in the 
        District of Columbia, often do not have the capacity or budget 
        to do so effectively.
  --Some personnel have grades that are lower than that of a school 
        principal, yet wearing their ``SEA hat'' they must monitor and 
        enforce compliance functions in the schools.
    A specific example of one of the challenges presented by the lack 
of a true and distinct State Education Office is surfaced when we 
consider student transfers. If a student is truant, suspended for more 
than 25 days, or expelled from a charter school, DCPS does not have to 
admit that student into its alternative school (Choice Academy) because 
that alternative school is supported by local education funds, not 
state funds. Charter schools are considered to be their own local 
education agency, in other words, they legally exists as a separate 
school district. Therefore, the DCPS view is that the charter school 
(as a district) is responsible for providing an educational alternative 
for that student. Although each charter school has legal ``school 
district'' status, it does not actually operate as a school district 
with a central office nor could it sustain its own alternative school. 
One possible solution is for the State Education Agency to operate the 
alternative school instead of DCPS so that any student living in the 
District of Columbia regardless of the school s/he attends, could be 
admitted to the alternative school.
    The Association is supportive of efforts within DCPS to clarify and 
separate these functions beginning with the revision of the District of 
Columbia Municipal Regulations (known as DCMR 5) that govern the public 
schools, the development of separate organizational charts, the 
subsequent elimination of a single individual having responsibility for 
both state and local functions, and ultimately, we would advocate for 
the actual physical separation resulting in two distinct entities.

Collaboration with DCPS
    The charter community is interested in working to support all D.C. 
students and families across all sectors. We would like to discuss 
joint activities such as: Annual showcase of schools (DCPS and 
Charters); produce a ``state'' directory of all public schools; joint 
professional development; charters ``buy'' services from DCPS such as 
Medicaid billing; and co-location in DCPS Buildings.
    Let's keep D.C.'s school children in school buildings, not 
warehouses, churches, office buildings, etc. Commercial property was 
not designed for kids (no auditorium, gym, cafeteria, recreation 
fields, science labs, nurses office, etc.).
    DCPS buildings can house approximately 95,000 students but audited 
enrollment count is 58,785. There is room for about 36,215 more kids. 
Charters have over 15,000 students enrolled this year, so no need for 
charters to have to go to commercial market for space since DCPS has so 
much available.
    DCPS does not have adequate capital budget to maintain buildings 
and is wasting money on underutilized building. Charter schools on 
average spend $101 per square foot to renovate their school buildings. 
So far, the DCPS Long Range Facilities Master Plan is generating 
expenditures of $292 per square foot. So if charters can make 
improvements to the DCPS facilities at a cost lower than DCPS itself 
can.
    The city budget for education is growing each year. Since the first 
public charter school opened in 1997, DCPS's annual operating funding 
has increased from $479 million to $568 million, even though its 
enrollment has declined by approximately 17,000 students during that 
period (to charters and non-public schools). The charter school budget 
is going up as well as more charters open and more students enroll. The 
city is feeling the pinch.
    If charters could co-locate in DCPS schools, the facilities 
allowance (approximately $2,300 per pupil this year) in the form of 
lease payments could go directly to the local school for facilities 
upgrades. Then it's a win-win for both in a manner that would not 
foster ``competition'' among the two schools. For example, when Two 
Rivers PCS located in Elliott JHS, it very quickly made impressive 
improvements to the space, but Elliott remained the same. So some kids 
get nice, improved space while others in the same building get space 
that really needs improvements and that does not endear the charter 
school to the DCPS school!
    If DCPS principals knew they could count on the lease payments to 
help fix their buildings (and not go to some inaccessible pot of money 
within DCPS) they would be more motivated to co-locate with charter 
schools.

Keeping DCPS Buildings in the DCPS Inventory
    It is likely that the school-age population may increase slightly 
as more and more development and gentrification happen in the District 
of Columbia and more families move back into the city. As it stands 
currently, DCPS has many buildings that are significantly underutilized 
and are candidates for closure. If those schools are deemed surplus and 
go the Mayor's inventory, they may be lost forever to developers.
    In all, 84 (57 percent) of DCPS's 148 schools are at least 25 
percent underutilized and 60 (41 percent) are 40 percent or more 
underutilized. Co-location with charters may be a means to keep 
buildings in the DCPS inventory in a financially viable way. DCPS may 
be able to identify the top 60 schools that are 40 percent or more 
underutilized and give those principals an option saving the school by 
leasing the extra space to a charter school (or other youth service 
agency, library, recreation center, etc.).

Diversion of Revenue to the Commercial Market
    The charter school community appreciates the support from the 
Council surrounding the facilities allowance, particularly in the 
fiscal year 2005 budget. And we all recognize the cost to the city for 
the acquisition, renovation and lease of educational facilities is 
great.
    As we move forward to discuss funding and management options for 
educational facilities, we must all turn our focus toward efficiencies 
in the way District funds are used. Currently, there are an estimated 
4,854 public school students attending school in commercial rented 
space. This is costing the city $11.5 million this year. This figure is 
the net facilities allowance appropriated to each public charter school 
that has been forced to turn to the private market to secure facilities 
due to lack of public space. These charters, had they been co-located 
in DCPS buildings or leased space in surplus DCPS buildings, could have 
instead paid equivalent rent toward the public school system or back to 
the city, and in both cases, could have allowed for cost-effective 
improvements to the facilities.

----------------------------------------------------------------------------------------------------------------
                                                                  Fiscal year 2005       Fiscal year 2006 (est)
                           School                            ---------------------------------------------------
                                                               Enrollment     Amount     Enrollment     Amount
----------------------------------------------------------------------------------------------------------------
Booker T Washington.........................................          235     $559,300          255     $707,625
Cesar Chavez................................................          400      952,000          900    2,497,500
Community Academy (Butler)..................................          164      390,320          200      555,000
D.C. Bilingual..............................................          122      290,360          172      477,300
EL Haynes...................................................          138      328,440          194      538,350
Eagle.......................................................          135      321,300          125      346,875
Elsie Whitlow Stokes........................................          250      595,000          250      693,750
Jos-Arz.....................................................           70      166,600           70      194,250
KIPP........................................................          320      761,600          405    1,123,875
LAMB........................................................           60      142,800           84      233,100
Marriott....................................................          150      357,000          150      416,250
Mary McLeod Bethune.........................................          124      295,120          250      693,750
Meridian....................................................          630    1,499,400          655    1,817,625
Next Step...................................................           72      171,360           72      199,800
South East Academy..........................................          695    1,654,100          700    1,942,500
Thurgood Marshall...........................................          205      487,900          280      777,000
Tri-Community...............................................          228      542,640          368    1,021,200
WMST........................................................          350      833,000          380    1,054,500
William E. Doar.............................................          226      537,880          224      621,600
Young America Works.........................................          280      666,400          225      624,375
                                                             ---------------------------------------------------
      TOTALS................................................        4,854   11,552,520        5,959   16,536,225
----------------------------------------------------------------------------------------------------------------
Notes: Fiscal year 2005 enrollment numbers are budgeted projections from schools, consistent with the fiscal
  year 2005 budget. Since the fiscal year 2005 audit has not yet been finalized, these numbers are the most
  accurate available. Fiscal year 2006 enrollment and projected funding are not yet final, and are based on an
  estimated allotment of $2,775 per non-residential student.

    Had DCPS made space available to charters, this rent could have 
paid for the entire roof replacement at Wilson, replaced windows in 25 
``small school'' projects, and replaced 4 boilers. Instead, the city 
funded these projects in the DCPS Capital budget, and will pay the 
interest for 30 years.
    The Association in no way advocates for the reduction of neither 
facilities allowances nor capital funding for educational facilities. 
However, we do recognize the importance of more strategic investment 
within the city's limited funding. We view the re-direction of the 
facilities allowance from commercial leases to DCPS under-enrolled or 
surplus properties as a strategic way to keep facilities funding in the 
city, and maximize the resources that ensure appropriate facilities for 
all public school students.
    In closing let me add that at least one charter school is paying 
over one million dollars in lease payments annually. Think about how 
much better that money could be spent on the academic program or the 
impact it would have on improving a DCPS facility. We have an 
incredible opportunity here to do what's right for kids by ensuring 
that they have appropriate learning environments and that the adults 
responsible for their learning are not spending a disproportionate 
amount of time on the facilities issue.

    Senator Brownback. Ms. Olaseha, you're the consumer we're 
trying to target. You have three children in the D.C. Public 
Schools, and we want to hear from you. What is it we should be 
doing to see that these schools improve for your children?

STATEMENT OF DORIS OLASEHA, PARENT
    Ms. Olaseha. First of all, I would like to say good 
afternoon, Senator Landrieu, Senator Brownback. I would like to 
thank you for the opportunity to speak this afternoon.
    Again, my name is Ms. Olaseha, and I do have three students 
in the D.C. Public School system. One of my students attends a 
public charter school. And I might add, I'm quite pleased with 
that school. I have another who attends a traditional school at 
the high school level, and another attending a traditional 
school at the middle school level.
    Before I begin my comments, I would just like to say, at 
the outset, I do not come here as a subject matter expert. I 
don't even come here as a representative of other parents. I do 
come, however, to share with you my experiences and my 
perspectives as a parent of children attending D.C. Public 
Schools.
    I value my children's education. I let my children know 
that I value their education. And I want my children to value 
education. And that is why I send them to school. As I 
mentioned before, I do have three students who attend the 
public schools. And, as a parent and as an advocate of my 
children's education, I hold myself accountable for my 
children's education, for their success. I hold my children 
accountable for their education and for their success. And I 
hold the school accountable for my children's education and for 
their success.
    You know, it occurs to me that public school education may 
be the single-most major institutional influence in the lives 
of most children. Thus, a heavy burden befalls public schools 
to work to ensure our children's achievement in school and 
beyond.
    Now, imagine this with me: A school where students are held 
accountable for their progress, held accountable for completing 
all classwork and homework; a school where students are not 
ignored, nor are they discounted when they don't succeed, but, 
instead, they're encouraged to succeed; a school where low-
performing students are not dismissed as failures, but they're 
reminded of how valuable they are; a school where low-
performing students are tutored and mentored and partnered with 
other professionals and even peers for academic achievement; a 
school where parents are notified and kept apprised of 
student's progress before the report cards come out; a school 
where teachers and parents endeavor to bond and to connect for 
the good of the student; a school where faculty and staff 
openly convey a love for learning, a love for helping the 
student to learn.
    Well, for me this is more than just a mere imagination. I 
know of such a school. One of my children attends a public 
charter school--namely, Thurgood Marshall Academy. Now, I don't 
mean to suggest that the school is perfect. We are still 
growing. But I am pleased to have identified and to have 
enrolled my child in such a school where the concern is for a 
student. And one of the things I'm willing to say about the 
school is that they are willing to be creative in the 
curriculum, or, rather, creative in the presentation of the 
curriculum, to incite interest and a desire to learn among the 
students.
    My students have also attended private schools. Again, I do 
value education. And in the pursuit of having a decent 
education for my children, I have found that all children don't 
learn in the same manner. I've also found that all schools are 
not created equally. Thus, I have sought out private schools, 
as well as different public schools. I've even sought out 
institutions of education where the opportunity for a tutor is 
available.
    Last--or, rather, early this year, I had one of my children 
assessed at one of the learning centers, because I wanted to 
get a feel for where her strengths were and where her 
weaknesses were. The assessment alone cost $200. The center 
came up with a curriculum for my child, a 10-month curriculum 
of 6 hours per week. The cost was in excess of $10,000. I'm not 
a rich woman. I couldn't afford it. Okay? The assessment alone, 
of $200, was enough for me.
    When I heard about a school in southeast Washington, a 
charter school that has, as a regular part of its curriculum, a 
mentoring element and a tutoring element, and I thought to 
myself, ``This is a godsend.'' Initially, I did not believe it. 
I thought surely such is not the case, particularly in 
southeast. But I did check the school, and I'm pleased that I 
have enrolled my child, and I do plan to enroll a second child 
there next year.
    These are some of the positives. Conversely, some of my 
experiences have been met with less productive encounters. One 
of my children, who is in a traditional middle school, who is a 
pretty bright student, has been less than successful. My 
daughter's first year at her middle school was encountered with 
a low-performing math program, and it saddens me that, of all 
the courses, the math program was the one that performed so 
incompetently.
    I want to point out that I don't have any particular 
preference or prejudice for whether a hearing or a deaf person 
teaches my children, but this particular year my daughter had a 
deaf math teacher. Long story short, the math program was 
basically dysfunctional. I don't know if the teacher finished 
out the year there, but, in the end, those same students had to 
be remediated the following year in math.
    Senator Brownback. Ms. Olaseha, please wrap up, if you can, 
so we can have some questions.
    Ms. Olaseha. They had to be remediated in math. Now, I 
commend the administrators for their efforts to try to resolve 
the problem and try to make good on what occurred earlier by 
remediating the children, but this should not occur, because, 
ultimately, the students lose out.
    And I would like to echo something Senator Brownback said. 
We don't have a lot of time, because those same students who 
missed out on their math program are moving on to other things. 
And just that very situation alone can translate to a major 
setback for them.
    Again, I don't present myself as an expert, but I do think 
there are various stakeholders that can make a difference--of 
course the school, the school system, legislators, and 
definitely parents. And parents--I would like to just comment 
here--do not insignify your role in your child's education. We 
do have power. There is strength in numbers. But we must act. 
We must act for our children's well-being. And I believe with 
all of us working together, with all stakeholders working 
together, we can make a positive difference in our children's 
lives, not only in school, but beyond that time.
    Thank you for your time.
    [The statement follows:]

                  Prepared Statement of Doris Olaseha

    Good afternoon, Senator Landrieu, Senator Brownback, Congressmen 
and Congresswomen here assembled; Dr. Janey and D.C. Public School 
officials; parents, students and other stakeholders. My name is Ms. 
Olaseha and I am the parent of three D.C. Public Schools students.
    I am pleased to have been invited to share my perspective, as a 
parent, on D.C. Public Schools. I want to point out from the beginning, 
I do not come to you as a subject matter expert on the issue. I come 
sharing my experiences and perspectives
    As a parent, as an advocate of my children's education, I hold 
myself accountable for their success in school; I hold my children 
accountable for their success in school; I hold my children's schools 
accountable for my children's success in school. I value education. I 
let my children know I value education. I want my children to value 
education. That is why I send them to school. One of my children 
attends a traditional; i.e., non-charter, high school; one, a 
traditional middle school; and the other, a charter school.
    I suspect public school education is probably the single most major 
institutional entity that shapes our children's lives. Thus, a heavy 
burden befalls public schools to work to ensure our children's 
achievement in school and beyond. Imagine this, a school where students 
are held accountable for completing all homework and class work, and 
are not ignored or discounted when they don't do so, but encouraged to 
succeed; a school where low-performing students are not just dismissed 
as failures; a school where low-performing students are tutored and 
mentored and partnered with other professional and peers for help; a 
school where parents are notified and kept apprised of student progress 
(prior to report card time); a school where teachers and parents 
endeavor to bond and connect for the good of the student; a school 
where faculty and staff openly convey a love for learning and a love 
for helping students learn and succeed; a school that works creatively 
to incite student interest. Well, I am pleased to say that I not only 
imagine these things, I experience such things at my child's public 
charter school, Thurgood Marshall Academy (TMA). I appreciate the fact 
that the school does not lower its standards in order for the student 
to gain the appearance of success, but instead, employs creative means 
to help students succeed. I've seen similar successes in the 
traditional schools my children have attended, as well.
    Conversely, my children have been enrolled in DCPS that lacked 
resources including competent administrative management; competent 
teachers; sufficient supplies and parental support. One of my children 
attended a school that, for all practical purposes, did not have a 
viable math program. When I addressed the school administration about 
the math teacher's display of incompetence, I was basically told ``we 
hire whoever we can get.'' On the one hand I was appalled at the 
response. But as the administrator pointed out, at the time it was an 
alternative to no teacher at all. I do not recall whether the math 
teacher finished out the year with the subject school, but the end 
result translated to having no math program at all because the 
following school year, the students, promoted to the next grade level, 
were remediated in the previous year's math curriculum due to the lack 
of a competent program the previous year.
    The foregoing example is but one situation that plagues schools and 
hinders teaching and learning. Large class sizes are yet another 
problem. I don't mean to suggest these are the only problems that exist 
and I'm not prepared to offer the all the logistical solutions to these 
and other problems that may appear to plague DCPS individually, and 
possibly, collectively; however. `` What's a parent, teacher, 
administrator to do?'' I asked myself. Components of the No Child Left 
Behind Act are definitely a step in the right direction. I am pleased 
for the opportunity to choose which DCPS my child attends. As a result, 
I have opted to maintain my child's enrollment in a charter school and 
to enroll another of my children there, as well.
    In closing, I share these final thoughts. I believe quality 
education should be afforded all students, despite their social and/or 
economic environment, despite their learning styles and needs, despite 
the locality in which they live. All the plans, suggestions and 
legislation in the world don't count if there's no effective 
implementation and execution. Though arduous may be the task of 
executing a system to meet the numerous and diverse educational needs 
of its students, the results are sure to have benefits in school and 
beyond.
    Thank you for your time.

    Senator Brownback. Thank you. And thank all of you.
    Ms. Quinones, I want to look at particularly--you made a 
number of pretty concrete recommendations of what we need to do 
on the charter school movement. It sounds like you've had a 
pretty good chance to think through this maturing group. The 
backoffice ideas, I thought, really represented a good money-
saving approach to be able to get more money here.
    The co-location issue, Senator Landrieu has mentioned and 
you talked to as well, are you getting pretty good 
participation from the D.C. Superintendent's Office and the 
D.C. Board of Education on the co-location issue? That question 
came up in the last panel, and I'm not sure what I heard for an 
answer. I would like to get your thoughts on it.
    Ms. Quinones. I think we're definitely making progress. We 
have the will to make this happen. There's definitely 
recognition of losing out on resources to the commercial market 
that really could be brought back in to help supplement the 
capital budget and operating budget. But from the charter 
perspective, we're not quite there yet. One of the challenges 
has been, with the passing of the co-location guidelines, that 
it happened pretty late into the school year. And so, there are 
still more steps that need to happen to actually get a lease 
signed by a charter school.
    So, we're not holding our breath, but we're still hopeful 
that a few schools may actually get a lease signed to be able 
to co-locate for this upcoming year.
    Senator Brownback. Let me get to a finer point. So, you 
think you're making progress in the negotiation of co-location, 
but you're not there yet on really getting a good seamless 
interaction with the superintendent's office and the board.
    Ms. Quinones. We have pretty good communication, but part 
of it is that DCPS is part of a larger bureaucracy, so we still 
have layers to go through. So, while we can interact with Tom 
Brady and some of the others, it is not one person that can 
make the ultimate decision. That's part of it, is just going 
through the redtape to actually make it happen.
    Senator Brownback. That's fair enough. We just want to make 
sure you're getting a good discussion, and that's moving 
forward. Where do you see us topping out on charter schools? 
Senator Landrieu was commenting to me here about--the number 
here is quite high, relative to other urban settings, and it 
certainly looks like, to me, it's high. Are you topping out 
now, or do you see this moving on forward?
    Ms. Quinones. We're probably number two or three in the 
country, after Dayton, Ohio, and Kansas City, in terms of the 
sort of market share of charter schools. One of the things that 
is happening is really--with the facilities, that's becoming an 
obstacle to getting more schools in the pipeline. If there are 
strong applicants, they can get through that process, but they 
get stalled, in terms of opening, and a few have had to delay 
their openings because of that challenge. I do think, also, in 
a sense, the market can only bear so many schools, so we may 
come to a point relatively soon where we don't actually have a 
cap, but there could be a sort of de facto cap.
    Senator Brownback. I don't want to call it a cap, but I'm 
just saying, as you're in this market, you've grown 
explosively. Is that growth continuing to take place?
    Ms. Quinones. Yes, it is. As was mentioned, still, the 
majority of charter schools have wait lists. There's still 
incredible demand from the parents. I don't see the movement 
slowing down any, for those reasons.
    Senator Brownback. What is driving it? Why are you growing 
at such an explosive rate?
    Ms. Quinones. I would have to say a lot of it has to do 
with the dissatisfaction with a lot of the schools in D.C. 
Public Schools, and as more parents become aware of how charter 
schools are performing, and through word of mouth they're 
finding out from family and friends that these are safe, 
quality options, there are more and more people that are coming 
to charters and looking to charters to provide a safe place and 
a quality school for their children.
    Senator Landrieu. I just wanted to add, Mr. Chairman, why 
it's so critical for us to get this space dilemma corrected as 
quickly as possible. Here you have 16 million square feet of 
space the taxpayers have already paid for. Five million square 
feet is not being used. And on this side you have hundreds of 
people waiting in line to get in schools, but they can't, 
because there's no space. So, our subcommittee, last year, 
after working--or trying to work for 4 years in a very 
cooperative way with the school board, finally said, ``Enough's 
enough.'' And so, we put some very strong language--I would 
have liked it even stronger--to try to get the school board, on 
behalf of the citizens of the District, to identify the surplus 
property so it could be turned over in an appropriate way at 
market value--at a market value, with a discount which was 
established by the city, not by us--established by the city--a 
25 percent discount. It was their choice to give the discount. 
We just said, ``Just get it to them and let the schools then 
co-locate.'' In addition, the benefit to the host public 
school--this could potentially be one. I'm not sure about Hine. 
It may be full. I'm not sure. But the charter schools have such 
flexibility, which is good. They can renovate their own space 
and perhaps even help renovate in some ways--I can't promise 
this, but they have such flexibility, maybe they could renovate 
some common space that would benefit the public--traditional 
public school, as well.
    So, I really want our subcommittee to focus on this 
facilities issue, because we really should be meeting the 
demands, as much as we can, of the parents, and listening to 
what they're saying. And our charter school movement has 
stymied because of the lack of cooperation--not lack of 
cooperation, but there doesn't seem to be an urgency on the 
part of those people holding this fine point of feet of extra 
space. But there's a lot of urgency on the part of the parents, 
looking for space. And it may be, Ms. Wade, your committee 
could help us.
    Ms. Wade. If I could make a comment. Over the past 4 
months, there was the creation of the D.C. Education Compact, a 
facilities committee. And I am very willing to get the report 
from that committee to you. They were fully supporting of co-
location concept, and have worked closely with Dr. Janey and 
his leadership. I think Ms. Quinones was clear in saying there 
is progress. People are meeting, and I think there is a sense 
of urgency. There is some bureaucracy, clearly, that has to be 
worked around.
    I think the challenges facing--putting two schools within a 
building--while on paper, looks easy. I'm from Boston. We've 
been here for 9 months. But we went through many co-location 
issues, and there's sensitivity around establishing 
relationships with schools, within buildings.
    There is no hesitation on the need to move forward on this. 
I really want to emphasize that. And the superintendent and his 
staff are working diligently to, in fact, implement the list of 
the 15 schools they want to see co-located, in addition to co-
locations that already exist for this coming year.
    Senator Landrieu. I hope one thing we're considering is 
when a charter school tries to locate within a public school, 
that there are some benefits that flow to the host school. And 
that can be done by a decision of the local school board to say 
that basically the rent you pay doesn't go to the central 
office, but it goes to the school that is hosting the charter 
so that you have everybody getting some benefit. Maybe the 
school that is hosting has given up some space it wasn't using; 
in return, they get the revenue to renovate their auditorium, 
or they get the revenue to build a new parking lot, or they get 
the revenue to fix the roof. This is not rocket science. We 
cannot seem to get everybody to understand you've got to make 
something work for everyone--for the host, for the lessees, and 
for the systems. So, I'm hoping we can have a little 
breakthrough this year on this. It is a real problem.
    Ms. Wade. I think you will see some changes starting this 
coming school year.
    Ms. Quinones. Just one caveat to the issue of co-location. 
The way the guidelines are right now, they're only allowing for 
a 1-year lease, so it is not ideal. A lot of the charter 
schools that it would work for are the brand new schools that 
have a smaller population. And so, some of the larger schools--
--
    Senator Landrieu. Why is it a 1-year lease?
    Ms. Quinones. I believe it is because Superintendent Chief 
Janey is working on his master education plan. And so, they 
want to do this almost as a pilot. So, once that plan is 
finalized, they will have more firm knowledge around which 
schools might be consolidated and closed, and then they can do 
longer-term leases from that point on. So, this is sort of a 
temporary fix. But we do have a number of schools that are 
looking for permanent space, and would be interested, actually, 
in accessing some of those buildings that may be closed and 
surplused. It's, in some ways, an easier solution than co-
location.
    Senator Brownback. Well, I'm delighted to have my colleague 
on this who has dug into this so much already, and 
knowledgeable of it, and I think it gives us a running start on 
all of these topics.
    I want to thank the panel. We're all in this for the same 
thing, to make sure that children have the best education they 
can possibly get. And we know, as a society, if we get those 
children well educated, they're much better citizens and they 
can contribute so much more to society. And if they're not, 
they're unfortunately put in circumstances where choices for 
them are much more difficult. And the choices, then, for 
society become more difficult too. So this is a key thing.
    I want to thank you all for your hearts and your commitment 
and what you've done. I look forward to working with you on 
this. And I look forward to working with my colleague, Senator 
Landrieu, on this, as well. I think we can make some real 
progress.
    The hearing record will remain open for the requisite 
number of days. If individuals want to make additional 
submissions to their statements, those will be accepted.
    [The information follows:]

                     Additional Committee Questions

    The questions presented below were forwarded to the leaders of all 
42 charter schools in Washington, DC. The responses are intended to 
reflect the varying opinions and concerns of those leaders who 
responded in writing and as well as feedback from a discussion by 
members of the D.C. Public Charter School Association (DCPCSA) Board of 
Directors. We are not intending to take a formal position on any of the 
questions as we recognize that further discussion is warranted if any 
changes are to be made to the School Reform Act. However, we wish to 
participate in any process that may be undertaken for that purpose.
    Question. What are your views on the strengths and limitations of 
the charter school lottery system?
    Answer. The strength of the charter school lottery system is that 
it is an equitable process for providing access to quality public 
education for all residents of the District of Columbia and it prevents 
``creaming'' of the best and brightest students.
    While overall there is support for the lottery system, there are 
some specific and limited circumstances where many believe that 
exceptions should be allowed or that modifications to the School Reform 
Act or to the federal non-regulatory guidance for the Charter Schools 
Program should be made. The first category of exceptions is the 
``Preference'' category:
  --Sibling Preference.--Siblings and children living in the same 
        household are given preferential consideration for admission in 
        the lottery as a consideration to parents/guardians. This 
        federal guidelines and the School Reform Act allow it.
  --Founder Preference.--The children of charter school founders are 
        often the very reason a charter school was contemplated. In 
        those instances where the parent founders were the individuals 
        who had the original vision for the school concept and because 
        of the tremendous amount of work they put into the development 
        of the school, there is a desire to allow them an admissions 
        preference for their children. There is currently a proposal to 
        the D.C. City Council to amend the School Reform Act to allow 
        for the children of founders to have an admissions preference 
        that would be no more than 10 percent of the total student 
        population or 20 students, whichever is less, as long as the 
        students are D.C. residents.
  --Staff Preference.--D.C. Public Schools allow for out-of-boundary 
        enrollments which is a means for school personnel to enroll 
        their own children in the school in which they work as long as 
        they are D.C. residents. This has a few benefits: it is more 
        convenient for staff who are parents; it increases parental 
        participation in the school; it sends a message of confidence 
        to other families about the quality of the school. Some would 
        like to propose an amendment to the School Reform Act to allow 
        for this preference with the same limitations as indicated for 
        the founder preference: no more than 10 percent of the total 
        student population or 20 students, whichever is less, as long 
        as the students are D.C. residents.
  --Single-Sex Preference.--Charter schools that intend to serve a 
        single sex may conduct a lottery that is limited to one gender. 
        Federal guidelines allow it and there is precedent for it as 
        there are charter schools in other jurisdictions which serve 
        only one gender.
  --Family Preference.--For the first time to our knowledge, a charter 
        school founding group is proposing to establish a school that 
        would serve pre-school and young children and their parents. 
        The young children participate in an early childhood education 
        program, the parents receive adult education, and they both 
        participate in a family literacy program. The founders are 
        proposing a lottery that would admit the family as a unit 
        similar to the sibling preference. This has not been 
        contemplated in the federal guidance nor in the School Reform 
        Act. Although we do not think, as written, either would 
        preclude the family preference, an amendment to the School 
        Reform Act may be necessary.
    The second category of exceptions is the ``dual'' lottery category:
  --Gender Balance.--Some schools are interested in having a 50/50 
        gender balance and, under federal guidelines, it is not 
        permissible to conduct a lottery to achieve this end. There is 
        not consensus that this should be permissible. However, in the 
        case of residential schools, where for practical reasons, the 
        gender balance affects the dormitory/living situation, this 
        could be an important exception for enrollment purposes. A 
        change at the federal level would be required so that 
        residential charter schools engaging in this lottery method 
        would not be ineligible for federal funding from the Charter 
        Schools Program.
  --Language.--Many charter schools in the District and nationally 
        recognize the research-based value of two-way dual language 
        immersion programs. This type of bilingual program requires 
        that 50 percent, but not less than 30 percent, of the student 
        population be English dominant speakers and 50 percent, but not 
        less than 30 percent, be speakers of the target language (i.e. 
        Spanish, French). Traditional public schools conduct a ``dual'' 
        lottery where 50 percent of the slots are reserved for each of 
        the two language groups. However, the federal regulatory 
        guidance does not allow this lottery method for public charter 
        schools. The School Reform Act does not disallow this; however, 
        a change at the federal level would be required so that charter 
        schools engaging in this lottery method would not be ineligible 
        for federal funding from the Charter Schools Program.
    A third category of exceptions is the ``referral'' category:
    Traditionally in school districts there are a number of alternative 
schools, or programs within schools, to which students may be referred 
at any point during the year. While many charter schools nationally are 
outgrowths of these alternative schools, the lottery process usually 
does not allow for them to target or limit enrollment to the very 
populations which they have the expertise to serve. Creating a category 
of charter schools where schools can target certain at-risk or special 
needs populations might be considered. For example: Special education 
programs (especially those with level 4 or 5 programs); drop-out 
recovery programs; and programs for newcomer immigrant students.
    Question. Would you consider the possibility of creating a portion 
of the lottery system for neighborhood-centered schools? Either a 
separate lottery for certain schools or a percentage of slots would go 
to students from the neighborhood? (View the system as made up of 
Neighborhood schools, City-wide schools, and Specialty schools).
    Answer. In recent discussions of facilities, some have raised a 
concern that the growth of charter schools and their possible location 
in excessed DCPS properties may lead to the elimination of 
``neighborhood'' schools which are within walking distance to students. 
There is a fear that a child who lives across the street from a charter 
school may not be admitted through the lottery process. If that charter 
school happens to be housed in a former DCPS school building, there may 
be no ``neighborhood'' school by right for the child to attend. The 
student would have to apply to other charter schools or use the DCPS 
out-of-boundary process to be admitted into a school.
    As the Superintendent develops the DCPS Master Education Plan, it 
will be important to consider the approach and geographic locations of 
charter schools and how they add to the educational options for D.C. 
families. In the planning, it will be wise to consider existing feeder 
patterns and the maintenance of neighborhood schools across the city. 
Modifying the School Reform Act to allow for a neighborhood preference 
may be advisable under certain circumstances. Charter schools which 
locate in former DCPS properties and which in fact eliminate the 
neighborhood school option, may provide a preference to the students 
who reside within the boundaries of that school.
    That being said, many feel that reserving seats in charter schools 
for neighborhood children is unnecessary as most are de-facto 
neighborhood schools because of location and transportation. The 
District of Columbia does not offer bus transportation to most 
students, so families are more likely to choose charter schools close 
to their homes. Short of amending the School Reform Act, there are 
several ways to maintain access to neighborhood schools. Since DCPS was 
at one time a segregated school system, there are often two school 
buildings located in close proximity of one another. If one of those 
schools is closed and offered to a charter school, there would be no 
elimination of the neighborhood school option. A second possibility 
might be for DCPS to amend the boundaries so that instead of the 
boundary ``circling'' the school building, the boundary circles the 
child. In this case the student could attend any DCPS school that is 
within a mile or so of the home. And thirdly, under the School Reform 
Act, conversion schools may in fact offer a preference to all students 
residing within the boundary of that school for as long as the school 
is in operation.
    This last policy has only been implemented in one charter school as 
there is currently only one conversion charter school in the District 
of Columbia. We have heard of DCPS schools in Ward 3, the most affluent 
ward in the District which has most of the higher performing DCPS 
schools, considering converting to charter status. This does raise a 
potential concern that if some of the schools in Ward 3 convert, under 
the current policy for the neighborhood preference, they might be 
filled by the neighborhood students thereby keeping out students from 
other wards or neighborhoods who seek to attend some of these high-
performing schools. In any case, this is an area where much further 
thought and discussion is needed.
    Question. Currently no charter school can hold an admissions test. 
Would you support adding admissions criteria for certain specialty 
schools, such as science or arts?
    Answer. There is a general feeling that we as the charter community 
should not support a program of exclusive schools paid for with public 
funds. DCPS has several magnet schools that require an admissions test 
and which are in high demand by families. Charter schools were 
developed in part to increase access to these types of specialty 
programs to a broader audience of students. Allowing charter schools to 
have selective admissions would undermine that goal.
    That being said, there is a minority who believe that a secondary 
school with a specific vocational specialty that is best suited for 
students with an aptitude for that specialty should be allowed to have 
an admissions test. This would be limited to performing arts schools 
for example rather than a school that has an academic focus such as a 
math, science, or technology high school. However, an interesting note 
here is that in Los Angeles a performing arts charter high school is 
being proposed that would not only prepare students for careers in the 
arts ``in front of the camera,'' but will also prepare students who are 
interested in the business aspect of the arts so, therefore, the 
admissions test or talent audition is not a pre-requisite for 
enrollment.

 Appendix 1. D.C. School Reform Act,  38-1802.06. Student Admission, 
                       Enrollment, and Withdrawal

              FORMERLY CITED AS D.C. ST 1981  31-2853.16
            DISTRICT OF COLUMBIA OFFICIAL CODE 2001 EDITION
     DIVISION VI. EDUCATION, LIBRARIES, AND CULTURAL INSTITUTIONS.
                  TITLE 38. EDUCATIONAL INSTITUTIONS.
            SUBTITLE IV. PUBLIC EDUCATION--CHARTER SCHOOLS.
    CHAPTER 18. DISTRICT OF COLUMBIA SCHOOL REFORM (PUBLIC CHARTER 
                               SCHOOLS).
                 SUBCHAPTER II. PUBLIC CHARTER SCHOOLS.

    (a) Open enrollment.--Enrollment in a public charter school shall 
be open to all students who are residents of the District of Columbia 
and, if space is available, to nonresident students who meet the 
tuition requirement in subsection (e) of this section.
    (b) Criteria for admission.--A public charter school may not limit 
enrollment on the basis of a student's race, color, religion, national 
origin, language spoken, intellectual or athletic ability, measures of 
achievement or aptitude, or status as a student with special needs. A 
public charter school may limit enrollment to specific grade levels.
    (c) Random selection.--If there are more applications to enroll in 
a public charter school from students who are residents of the District 
of Columbia than there are spaces available, students shall be admitted 
using a random selection process, except that a preference in admission 
may be given to an applicant who is a sibling of a student already 
attending or selected for admission to the public charter school in 
which the applicant is seeking enrollment.
    (d)(1) Admission to an existing school.--A District of Columbia 
public school that has been approved to be converted to a charter 
school under  38-1802.01 shall give priority in enrollment to:
            (A) Students enrolled in the school at the time the 
        petition is granted;
            (B) The siblings of students described in subparagraph (A) 
        of this paragraph; and
            (C) Students who reside within the attendance boundaries, 
        if any, in which the school is located.
    (2) A private or independent school that has been approved to be 
converted to a charter school under  38-1802.01 may give priority in 
enrollment to the persons described in paragraph (1)(A) and (1)(B) of 
this subsection for a period of 5 years, beginning on the date its 
petition is approved.
    (e) Nonresident students.--Nonresident students shall pay tuition 
to attend a public charter school at the applicable rate established 
for District of Columbia public schools administered by the Board of 
Education for the type of program in which the student is enrolled.
    (f) Student withdrawal.--A student may withdraw from a public 
charter school at any time and, if otherwise eligible, enroll in a 
District of Columbia public school administered by the Board of 
Education.
    (g) Expulsion and suspension.--The principal of a public charter 
school may expel or suspend a student from the school based on criteria 
set forth in the charter granted to the school.
    Appendix 2. NCLB Charter Schools Program, Title V, Part B, Non-
  Regulatory Guidance, Lottery, Recruitment, and Admissions Provisions
    What is a lottery for purposes of the CSP?
    A lottery is a random selection process by which applicants are 
admitted to the charter school.
    Under what circumstances must a charter school use a lottery?
    A charter school receiving CSP funds must use a lottery if more 
students apply for admission to the charter school than can be 
admitted. A charter school with fewer applicants than spaces available 
does not need to conduct a lottery.
    Are weighted lotteries permissible?
    Weighted lotteries (lotteries that give preference to one set of 
students over another) are permitted only when they are necessary to 
comply with Title VI of the Civil Rights Act of 1964, Title IX of the 
Education Amendments of 1972, Section 504 of the Rehabilitation Act of 
1973, the Equal Protection Clause of the Constitution, or applicable 
State law.
    In addition, a charter school may weight its lottery in favor of 
students seeking to change schools under the public school choice 
provisions of ESEA Title I, for the limited purpose of providing 
greater choice to students covered by those provisions. For example, a 
charter school could provide each student seeking a transfer under 
Title I with two or more chances to win the lottery, while all other 
students would have only one chance to win.
    May a charter school exempt certain categories of applicants from 
the lottery and admit them automatically?
    A charter school that is oversubscribed and, consequently, must use 
a lottery, generally must include in that lottery all eligible 
applicants for admission. A charter school may exempt from the lottery 
only those students who are deemed to have been admitted to the charter 
school already and, therefore, do not need to reapply.
    Specifically, the following categories of applicants may be 
exempted from the lottery on this basis: (a) students who are enrolled 
in a public school at the time it is converted into a public charter 
school; (b) siblings of students already admitted to or attending the 
same charter school; (c) children of a charter school's founders (so 
long as the total number of students allowed under this exemption 
constitutes only a small percentage of the school's total enrollment); 
and (d) children of employees in a work-site charter school (so long as 
the total number of students allowed under this exemption constitutes 
only a small percentage of the school's total enrollment). When 
recruiting students, charter schools should target all segments of the 
parent community. The charter school must recruit in a manner that does 
not discriminate against students of a particular race, color, national 
origin, religion, or sex, or against students with disabilities; but 
the charter school may target additional recruitment efforts toward 
groups that might otherwise have limited opportunities to participate 
in the charter school's programs. Once a student has been admitted to 
the charter school through an appropriate process, he or she may remain 
in attendance through subsequent grades. A new applicant for admission 
to the charter school, however, would be subject to the lottery if, as 
of the application closing date, the total number of applicants exceeds 
the number of spaces available at the charter school.
    May a charter school create separate lottery pools for girls and 
boys, in order to ensure that it has a reasonably equal gender balance?
    No, the legislation requires a charter school receiving CSP funds 
to hold one lottery that provides qualified students with an equal 
opportunity to attend the school. Therefore, a charter school receiving 
funds under the program is precluded from holding separate lotteries 
for boys and girls. Nor may a school weight its lottery in favor of one 
gender over another. A school seeking to avoid gender imbalance should 
do so by targeting additional recruitment efforts toward male or female 
students.
    May a tuition-based private preschool program that becomes a public 
charter school at the kindergarten level permit children enrolled in 
the preschool program to continue in the elementary program without 
going through a lottery process?
    No, because the preschool program is private, charges tuition, and 
most likely does not admit all students, allowing its students to gain 
admission to the elementary program without going through a lottery 
process would violate the statute. Therefore, all applicants to the 
charter school (the elementary program) would have to be selected by 
lottery if there are more applicants than there are spaces available.
    However, the statute does not preclude an elementary charter school 
in this type of situation from holding its lottery a few years early--
e.g., when students are ready to enroll in the preschool. Under this 
approach, the charter school would have an affirmative responsibility 
to inform prospective applicants that winning the lottery would not 
require them to enroll in the private preschool. Thus, any child 
selected through the lottery would be guaranteed a slot in 
kindergarten, a few years later, whether or not she or she enrolls in 
the preschool program.
    Additionally, given the high mobility of children and families, 
schools that choose to exercise this option should ensure that families 
new to the area or who were not aware of the previous lottery are given 
the opportunity to apply for admission. Such actions must meet the 
admissions requirements of the CSP and might include holding a second 
lottery to fill vacancies created by normal attrition or failure of 
early lottery winners to enroll in the charter school.
    May a charter school receiving its final year of CSP funds select 
students for the next school year (when the school will not be 
receiving program funds) without using a lottery?
    A charter school receiving its final year of CSP funds may select 
students for the upcoming school year without using a lottery, provided 
that the school obligates all funds under its CSP grant before those 
students actually enroll in the school. If the school has carry-over 
funds or extends its grant period, then it must continue to meet all 
program requirements, including the requirement to hold a lottery if it 
receives more applications for enrollment than it can accommodate for 
the upcoming school year.
    In addition to Title V, Part B, Subpart 1 of the ESEA, what other 
statutory or regulatory authorities should a charter school consider 
when developing its admissions policies?
    To be eligible for Federal start-up grants, a charter school's 
admissions practices must comply with State law and applicable Federal 
laws. Exemptions from enrollment lotteries are permissible only to the 
extent that they are consistent with the State's charter school law, 
other applicable State law, the school's charter, and any applicable 
Title VI desegregation plans or court orders requiring desegregation. A 
charter school's admissions practices must also comply with Part B of 
the Individuals with Disabilities Education Act and Federal civil 
rights laws, including, but not limited to, Title VI of the Civil 
Rights Act of 1964; Section 504 of the Rehabilitation Act of 1973; and 
Title II of the Americans with Disabilities Act of 1990, as applicable.
    What are a charter school's responsibilities with regard to 
outreach and recruitment?
    Section 5203(b)(3)(I) of ESEA requires CSP applicants to inform 
students in the community about the charter school and to give each 
student ``an equal opportunity to attend the charter school'' (20 
U.S.C. 7221b(b)(3)(I)). Further, section 5203(b)(3)(E) requires charter 
schools receiving CSP grants or subgrants to involve parents and other 
members of the community in the planning, program design, and 
implementation of the charter school. 20 U.S.C. 7221b(b)(3)(E).
    May a charter school receiving CSP funds set minimum eligibility 
criteria for admission to the charter school?
    The ESEA does not specifically prohibit charter schools from 
setting minimum qualifications for determining who is eligible to 
enroll in a charter school and, thus, to be included in the lottery. As 
stated above, however, charter schools receiving CSP funds must inform 
students in the community about the charter school and give them an 
``equal opportunity to attend the charter school.''
    Thus, a charter school funded under the CSP may set minimum 
qualifications for admission only to the extent that such 
qualifications are: (a) consistent with the statutory purposes of the 
CSP; (b) reasonably necessary to achieve the educational mission of the 
charter school; and (c) consistent with civil rights laws and Part B of 
the Individuals with Disabilities Education Act. CSP grantees should 
consider using program funds to assist ``educationally disadvantaged'' 
and other students to achieve to challenging State content and 
performance standards.

                         CONCLUSION OF HEARING

    Senator Brownback. We want to thank the host school, Hine, 
for hosting us in this facility. And it won't be the last of 
our discussions with the D.C. Public Schools.
    The hearing is recessed.
    [Whereupon, at 4 p.m., Wednesday, May 25, the hearing was 
concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
